<html>
<title> - ACCREDITATION AS QUALITY ASSURANCE: MEETING THE NEEDS OF 21st CENTURY LEARNING</title>
<body><pre>[Senate Hearing 113-823]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-823
 
 ACCREDITATION AS QUALITY ASSURANCE: MEETING THE NEEDS OF 21st CENTURY 
                                LEARNING

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

 EXAMINING ACCREDITATION AS QUALITY ASSURANCE, FOCUSING ON MEETING THE 
                     NEEDS OF 21ST CENTURY LEARNING

                               __________

                           DECEMBER 12, 2013

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and Pensions
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 22-269 PDF              WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                      
      
      
      
      
      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland                LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington                     MICHAEL B. ENZI, Wyoming
BERNARD SANDERS (I), Vermont                 RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania           JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina                 RAND PAUL, Kentucky
AL FRANKEN, Minnesota                        ORRIN G. HATCH, Utah
MICHAEL F. BENNET, Colorado                  PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island             LISA MURKOWSKI, Alaska
TAMMY BALDWIN, Wisconsin                     MARK KIRK, Illinois
CHRISTOPHER S. MURPHY, Connecticut           TIM SCOTT, South Carolina
ELIZABETH WARREN, Massachusetts

                                     
                            
                                       

                    Pamela J. Smith, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                  (ii)

  




                                CONTENTS

                               __________

                               STATEMENTS

                      THURSDAY, DECEMBER 12, 2013

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     2
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    39
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    42
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    44

                               Witnesses

Levine, Arthur, Ph.D., President, Woodrow Wilson National 
  Fellowship Foundation, Princeton, NJ...........................     5
    Prepared statement...........................................     7
Wolff, Ralph, J.D., Former President, Western Association of 
  Schools and Colleges, Alameda, CA..............................    11
    Prepared statement...........................................    12
Phelan, Daniel J., Ph.D., President, Jackson College, Jackson, MI    20
    Prepared statement...........................................    23
King, Laura Rasar, MPH, MCHES, Executive Director, Council on 
  Education for Public Health, Silver Spring, MD.................    27
    Prepared statement...........................................    29

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Talking Points from Senator Alexander........................    60

                                 (iii)

  


 ACCREDITATION AS QUALITY ASSURANCE: MEETING THE NEEDS OF 21st CENTURY 
                                LEARNING

                              ----------                              


                      THURSDAY, DECEMBER 12, 2013

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m. in 
room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Alexander, Franken, Murphy, and 
Warren.

                  Opening Statement of Senator Harkin

    The Chairman. Good morning, everyone.
    The Senate Health, Education, Labor, and Pensions Committee 
will come to order.
    First, before we get started, I am informed that we are 
going to have two votes starting in about 1 hour; 10:55 maybe 
11 o'clock. So what we will do is continue the hearing. We will 
take a break. There will be two votes. What I will do is go 
over for the end of the first vote, the beginning of the second 
vote, and then come back. So we can expect a break in a little 
over an hour from now--maybe an hour and 10 minutes from now in 
the proceedings.
    Today's hearing is the fourth in our series examining 
critical issues in postsecondary education in anticipation of 
reauthorization of the Higher Education Act. I said at our 
first hearing that we would spend time examining each player in 
the regulatory triad that oversees colleges. So today, we will 
take a close look at our accreditation system.
    Accreditation's role is to help ensure an acceptable level 
of quality across a wide spectrum of American higher education. 
Under the Higher Education Act, accreditation is required for 
institutions to access Federal financial aid. Students are 
eligible for Federal student aid only if they attend an 
institution that is accredited by an accrediting organization 
recognized by the Department of Education. Consequently, 
accrediting agencies are considered the gatekeepers of Federal 
financial aid, and are tasked with helping institutions 
continuously improve based on their missions, while also 
overseeing their quality.
    As we look to reauthorize the Higher Education Act, we have 
the opportunity to reassess the law and ensure that we have an 
accreditation system that meets the needs of today's students 
and taxpayers. We need to examine whether the current 
accreditation system sufficiently guarantees the quality of 
education that students receive at postsecondary institutions. 
We also face the challenge of improving the system to ensure it 
can adapt to a rapidly changing 2lst century higher education 
system.
    In recent committee hearings, I have raised serious 
concerns about the ability and capacity of our accreditation 
system to effectively monitor over 7,000 institutions of higher 
education of various scope, mission, and size. I have also 
identified potential, and I think in some cases, real, actual 
conflicts of interest.
    In recent years, we have seen too many instances of 
students and taxpayers shouldering the burden and consequences 
of poor oversight. While we heard from some accreditors in the 
course of the committee's hearings on for-profit colleges, 
today's hearing offers the first opportunity to look across all 
types of accreditation and at the system as a whole.
    I hope we can have a robust discussion about the current 
status of accreditation in U.S. higher education. We will look 
to our panel of witnesses today to give us their views on what 
improvements should be made. We have a great opportunity today 
to examine the strengths and weaknesses of accreditation, and 
to clarify what we expect from it. This examination will 
influence our thinking as we reauthorize the law, hopefully, 
next year.
    I look forward to working with our distinguished Ranking 
Member, Senator Alexander, and my other colleagues on both 
sides of the aisle to ensure that our higher education system 
remains affordable, accessible, and results-oriented, both for 
the students and our taxpayers.
    With that, I invite Senator Alexander for his opening 
remarks.

                 Opening Statement of Senator Alexander

    Senator Alexander. I want to welcome our witnesses, and 
thank Chairman Harkin for this hearing. I especially appreciate 
the evenhanded way he has approached all of these subjects on 
higher education, and I look forward with him to doing our best 
to try to reauthorize Higher Education next year.
    I am glad we are looking at the role of accreditation in 
all types of the 6,000 or 7,000 higher education institutions 
we have. I think it is important to look back at where 
accreditation came from to see what its central purpose is, 
whether the accreditors are fulfilling that role, what is the 
Federal Government's role in accreditation, and has the Federal 
Government overstepped to the point that accreditors are not 
doing what they were designed to do?
    It is worth it to me to go back to where accreditation 
started. The first accrediting agencies emerged more than 120 
years ago in the late 1800s. That was a very different time. 
There were not many colleges; most of them were private. They 
had abandoned the classical curriculum and some were adopting 
the new elective system. There were new types of institutions. 
It was not even clear what the difference was between a high 
school and a college. And so, the accrediting agencies' first 
role in that phase was to help create common admission 
standards so you could decide what was a high school and what 
was a college. The first effort at that was in 1885.
    At the turn of the 20th century, Mr. Chairman, when all 
this was going on, fewer than 13 percent of Americans were 
completing high school and less than 3 percent were completing 
college degrees, and there was not any Federal involvement at 
all in any of that.
    Then the G.I. bill came in 1944, money for veterans, they 
could even spend the money at high schools. And the number of 
people going to college doubled, but still, it was not really 
very many.
    Then the Korean War came, and the Korean War G.I. bill 
specified that institutions of higher education needed to be 
accredited by federally recognized accreditors in order for a 
veteran to spend money there. So it began to tie the Federal 
Government to the existing institutions. And at that time, only 
about 35 percent of students were graduating from high school 
and 6 percent were completing college; that is the time of the 
Korean War. So this is where this all came from.
    State approval of institutions was enough, everybody 
thought, for all of these higher education institutions. That 
pretty well lasted until 1965, when the Federal student aid 
could only go to institutions recognized by a federally 
recognized accreditor; that was the 1965 Higher Education Act. 
That tied eligibility to receive Federal aid to Federal 
regulation, but the law pretty well remained silent.
    This page, Mr. Chairman, is the entire amount of Federal 
law on accreditation in the Federal Government in 1952, at the 
end of the Korean War. And this is what it is today. This is 
not so bad compared to most higher education regulations. This 
is the law. This is the regulations. These are the sub-
regulations, but still quite a bit. And I think one of the 
things we want to know is, is all of this necessary?
    In our previous hearings, I have suggested that through no 
evil intention of everybody, we have reauthorized higher 
education, I think, eight times since 1965 and maybe we have 
done just some piling on of laws and regulations without 
thinking about what could be removed. And I will be interested 
to see what you think about whether we are adding unnecessary 
cost to institutions and delays to institutions by the Federal 
requirements.
    Briefly, in 1992, and I was Education Secretary at that 
time, the reauthorization of the Higher Education Act and 
Senator Kennedy was particularly involved in this. Senator 
Harkin was on the committee at that time and defined the areas 
that accreditors needed to examine. And by then, 80 percent of 
Americans were completing high school and 21 percent completing 
college, and that language was modified and expanded in 1998 
and 2008. So now we have 93 different criteria that accreditors 
must consider when determining institutional quality.
    I think the main point to make, Mr. Chairman, and I will 
bring my remarks to a conclusion so that we can hear from our 
witnesses, the whole purpose of accreditation to begin with was 
an effort by autonomous institutions to regulate themselves for 
the sole purpose of determining quality.
    The Federal Government then, understandably, because we 
spend a lot of money to help students said, ``Well, we want to 
make sure they are going to proper institutions.'' And so, we 
have gotten involved in giving the accreditors more to do. I 
think we have to think about: have we asked the accreditors to 
do some things that they should not be doing? Are the 
accreditors doing some things they do not need to be doing? And 
are they spending enough time really focused on quality?
    At Vanderbilt University, they estimate its College of Arts 
and Science devote more than 5,000 hours to accreditation-
related work every year. And that its School of Engineering 
devotes up to 8,000 hours of work every year on accreditation. 
That is probably way too much.
    We are looking for advice and we are trying to work 
together to sort through what has been done. I appreciate the 
chairman giving me a little more time to talk about this, but I 
have watched it from various angles. From the angle of a 
university president, and an education secretary, and a 
Governor. I have gotten pretty mad at accreditors sometimes 
when they came in and told me what to do that I did not think 
needed to be done, for example, at the University of Tennessee.
    I welcome your testimony. I thank the chairman for the 
hearing, and I look forward to the opportunity to ask 
questions.
    The Chairman. Well, thank you very much, Senator Alexander. 
Now you can see why Senator Alexander is such a vital part of 
this committee. He does have the background, the expertise, the 
knowledge, the intelligence to really help us weave our way 
through all of this. I want the Senator to know how much I 
appreciate his leadership and guidance in working together on 
these important issues.
    Senator Alexander. I hope I did not take too long.
    The Chairman. Oh, it was great. I enjoyed it. I thought it 
was great.
    Thank you all very much for being here and we will start 
now with our panel. We have four witnesses today. I will 
introduce them.
    Dr. Arthur Levine, is the sixth president of the Woodrow 
Wilson National Fellowship Foundation, previously was president 
and professor at the Teacher's College, Columbia University; 
and also served as chair of the Institute for Educational 
Management. A member of the American Academy of Arts and 
Sciences, also sits on the board of the Educational Testing 
Service; earned his bachelor's degree from Brandeis and Ph.D. 
from the State University of New York at Buffalo.
    Dr. Ralph Wolff, former president of the Western 
Association of Schools and Colleges, joined the staff of the 
Western Association of Schools and Colleges senior college and 
university commission in 1981, and served as its president from 
1996 through August 2013, currently serving as an advisor to 
them. That is the regional accrediting body for more than 160 
colleges and universities. Over the last 30 years, Dr. Wolff 
has led revisions to accreditation standards and has addressed 
such key issues as the changing ecology of learning, retention, 
and graduation, student learning outcomes, the changing world 
of faculty in for-profit institutions. A graduate of Tufts, he 
received his J.D. from the National Law Center at George 
Washington University.
    Next is Dr. Daniel Phelan, served as president of Jackson 
College in Jackson, MI since 2001. Previously served as 
president of the Southeastern Community College in West 
Burlington, IA and also served as executive vice president of 
Education and Student Services at Western Nebraska Community 
College. Dr. Phelan serves on the executive committee of the 
American Association of Community Colleges, and serves as chair 
of the Committee on Public Policy and Government Relations. He 
holds a bachelor's degree in business administration from Mount 
St. Clare College in Clinton and a doctorate from Iowa State 
University.
    Finally, I would like to introduce Ms. Laura King. Ms. King 
has served as the executive director of the Council on 
Education for Public Health since 2004. Her career spans nearly 
20 years in public health, most of which has focused on quality 
assurance in higher education and public health-related 
professional fields. Among her many roles, Ms. King provides 
consultation to universities interested in establishing a 
public health degree program and pursuing accreditation. Her 
other professional positions have included serving as Outreach 
and Education director at Physicians for Social Responsibility, 
as well as positions focusing on clinician education at George 
Washington University's Medical Faculty Associates. She earned 
her bachelor's degree in psychology from American University, 
her MPH from the George Washington University School of Public 
Health and Health Services, and I understand you are currently 
pursuing a doctoral degree from Northeastern University in 
Boston, MA.
    We have a distinguished panel. First, I thank you all for 
your past service to higher education and for being willing to 
join with us today to give us some of your thoughts and 
suggestions on where we should be headed when we reauthorize 
the Higher Education Act.
    All of your statements will be made a part of the record in 
their entirety. I will start with you, Dr. Levine, and we will 
go down the panel. If you could sum up in 5 to 7 minutes, I 
would appreciate it, and then we can get into a discussion.
    Dr. Levine, welcome and please proceed.

 STATEMENT OF ARTHUR LEVINE, Ph.D., PRESIDENT, WOODROW WILSON 
         NATIONAL FELLOWSHIP FOUNDATION, PRINCETON, NJ

    Mr. Levine. Good morning. Thanks for inviting me.
    Senator Alexander just offered an excellent summary of the 
history, the evolution, and the challenges facing accreditation 
in America. We have a system that consists of four different 
kinds of agencies. There are regional, there are national, 
there is religious, there are specialized accrediting 
associations, and they have four different purposes.
    The first is to set minimum standards for institutions and 
programs, and provide mechanisms to enforce them. The second is 
to build institutional or programmed capacity for continuous 
improvement. The third is to establish quality assurance for 
third parties. The fourth is to provide consumer information.
    I think the current system of accreditation overall works, 
but it is facing significant challenges, and I want to talk 
about three today.
    The first is there are too many accrediting agencies. Their 
standards vary widely. Some are too low; that is an increasing 
liability in a global digital information economy with growing 
numbers of postsecondary providers and technologies that span 
borders. Accreditation has got to be updated to meet the needs 
of an educational system that is facing dramatic changes in 
demographics, technology, economy, and globalization, and that 
is easier to say than to do.
    The second challenge is that accrediting focuses 
principally on the quality floor, minimum requirements to 
achieve approval. We need to pay more attention to what might 
be called the ceiling: rankings such as ``meets standards,'' 
``exceeds standards,'' and ``substantially exceeds standards,'' 
need to be added.
    The third challenge is that accreditation needs to shift 
its focus, which is now largely on process, to a greater 
emphasis on outcomes: graduation and placement rates, student 
loan debt, student achievement.
    Accreditation was created for an industrial society and it 
now has to adapt to an information economy that requires 
increased postsecondary attainment and affordability.
    So what do we do? Do we repair or do we replace the current 
accreditation system? And I suggest repair.
    Recent changes in the Council for the Accreditation of 
Educator Preparation, I can show what is possible. CAEP, which 
is what it is called, recently redesigned teacher education 
accreditation to meet the needs of the 21st century. They 
merged two existing organizations and thereby established a 
common floor, a common set of standards for the entire 
profession. They extended the pool of teacher education 
providers to be accredited to include universities and non-
universities, to include for-profit and not for profit and 
thereby encompass the totality of providers to raise the floor 
for accreditation. Require a ``B'' average to enter a teacher 
education program and performance in the top third on 
standardized tests. It required more rigorous teacher 
education. For instance, they are asking for intensive clinical 
experiences in teaching.
    It created a ceiling for teacher education, establishing a 
series of rankings including ``exemplary.'' It required 
outcomes data for accredited institution on student performance 
in graduate classes. What have students learned, not what a 
student has been taught.
    It also mandated annual reporting of data such as 
graduation rates, placement rates, pass rates on licensure 
exams, and default rates, as well as surveys of employers and 
graduates. It is an early warning system for when institutions 
are off-track. At bottom, all CAEP did was modernize and raise 
standards.
    The United States is making a transition from a national 
analog industrial economy to a global digital information 
economy. Every one of our social institutions, whether it be 
accreditation, or universities, or schools, or governments were 
created for the former and they seem broken today. They do not 
work as well as they once did, and they need to be refitted for 
a new era.
    The Federal Government can encourage the kind of initiative 
and the kind of change that is needed in accreditation with 
carrots and sticks. The carrots could be i3, Investing In 
Innovation, type funding for accrediting associations who take 
the type of actions that are needed. The stick is changes in 
recognition requirements which could be accomplished in 
cooperation with the accreditors.
    In short, I think we can. I think we have to repair, not 
replace, the current system.
    Thanks for inviting me to talk to you today. I look forward 
to your questions.
    [The prepared statement of Mr. Levine follows:]
               Prepared Statement of Arthur Levine, Ph.D.
                                summary
    As requested, this testimony addresses the structures and functions 
of accreditation, 21st-century changes in postsecondary education that 
demand changes in accreditation, areas for improvement in 
accreditation, and the recent success of the Council for the 
Accreditation of Educator Preparation in addressing those needs.
    Accreditation in postsecondary education has four functions--
establishing minimum quality standards, building institutional or 
program capacity, assuring quality for third parties, and providing 
consumer information. The testimony discusses challenges in each area.
    This testimony describes dramatic changes in the Nation--
demographic, economic, technological and global--that will produce 
major changes in postsecondary education and require comparable changes 
in accreditation.
    The testimony offers six suggestions for accreditation action: (1) 
Expand the scope of institutions eligible for accreditation, based more 
on student enrollment choices than on institutional characteristics 
such as degree-granting status; (2) Follow student academic careers to 
gauge the nature of their educational progress in a system in which 
they may study with multiple providers; (3) Develop common standards 
for regional accrediting associations in order to avoid non-traditional 
providers shopping around for the easiest accreditor, as well as to 
provide a common or shared set of standards for postsecondary education 
and greater cohesion in the current patchwork system of accreditors; 
(4) Develop additional categories for accreditation--meets standards, 
exceeds standards, substantially exceeds standards--in order to go 
beyond the floor accrediting currently focuses upon, to aid 
institutions in capacity building, and to inform consumers, with 
ratings in key areas such as academics, governance and finances as well 
as an overall assessment; (5) Place primary emphasis on the outcomes of 
postsecondary education rather than its process, determining key data 
to be collected by institutions and programs, and create a vehicle for 
providing more frequent updates to accreditors and reducing the 
burdensome paperwork, hubbub and cost associated with accreditation, 
and (6) Plan for an outcome- or competency-based system of 
postsecondary education.
    The recent transformation of teacher education accreditation by the 
Council for the Accreditation of Educator Preparation is offered as a 
model for the improvements in accreditation that are both needed and 
possible. Suggestions are made regarding how the Federal Government can 
expand such initiatives.
                                 ______
                                 
    Senators Harkin, Alexander and Colleagues: Thank you for inviting 
me to appear before you. Today, as requested, I will address the 
structures and functions of accreditation, 21st-century changes in 
postsecondary education that demand changes in accreditation, areas for 
improvement in accreditation, and the recent success of the Council for 
the Accreditation of Educator Preparation in addressing those needs.
              the structure and functions of accreditation
    Accreditation in postsecondary education is a system of peer-review 
begun in the late 19th century. It now includes six regional 
accrediting agencies that focus on whole institutions, largely degree-
granting and not-for-profit, in their geographic area; more than 50 
national accrediting agencies which have been concerned largely with 
vocational, technical and career institutions that may offer degrees or 
certificates; and a cornucopia of specialized accreditors that are 
field--and profession-specific. A small number of religious institution 
accrediting agencies exist as well.
    Accreditation is designed to perform four functions--setting 
minimum institutional or program standards, building institutional or 
program capacity, assuring institutional or program quality for third-
parties such as the States and Federal Government, and providing 
consumer information.
    <bullet> Setting minimum institutional or program standards.--The 
rationale for accreditation is to enable postsecondary institutions to 
engage in self-regulation by establishing explicit standards for 
themselves and creating a mechanism to enforce them. At the moment, 
those standards operate as a floor, delineating the minimum quality 
necessary for institutional or program acceptability. It would be 
desirable to create something more akin to a ceiling. This might be 
accomplished by shifting from the current pass-fail system of 
accreditation with gray areas in between to a system including varying 
levels of pass such as meets standards, exceeds standards, and 
substantially exceeds standards. Rather than giving institutions or 
programs a single grade of pass or fail, they could be rated in each of 
the key accrediting areas--students/access and graduation rates, 
program quality, governance, and so on--as well as receiving an overall 
rating. The large number of accrediting agencies also means 
considerable variation in the nature and quality of the floor.
    <bullet> Building institutional or program capacity.--For all 
intents and purposes, this is the way that accreditation has worked to 
create a ceiling. However, the result is a hazy system which appears to 
be the equivalent of ``let a thousand flowers bloom.'' A more 
differentiated system of ratings could be a vehicle for adding rigor to 
capacity building if it allows for institutional diversity.
    <bullet> Establishing quality assurance for third parties.--The 
most powerful form of third-party reliance is qualification for Federal 
financial aid. This is a mixed blessing. On the one hand, it is an 
acceptance of professional self-regulation in postsecondary education. 
On the other, it makes accreditation a high-stakes determination, which 
means giving the benefit of the doubt to institutions and programs and 
thereby lowering the floor. Providing realistic alternative routes to 
financial aid is the only possible ameliorative.
    <bullet> Providing consumer information.--It has been suggested 
that accreditation provide the same sort of information as U.S. News 
and World Report or the popular college guides. This would be 
unfortunate in violating the confidentiality essential to self-
regulation and peer-review. However, publicly releasing more 
differentiated ratings and requiring all accredited institutions and 
programs to release standardized data in key areas such as access and 
graduation rates would make an important contribution.
   21st-century changes in postsecondary education and implications 
                           for accreditation
    Shifts in demographics, economics, technology, and globalization 
are likely to change who is going onto postsecondary education, the 
characteristics of postsecondary education, and the interaction of 
students and postsecondary institutions.
Student Demographics
    Traditional students--18 to 22 years of age, attending college 
full-time and living in residence--now constitute considerably less 
than a third of undergraduates. The percentage is likely to decline 
further as the price of college rises beyond the means of most families 
and as continuing education mushrooms, with baby boomers retiring and 
work demanding more frequent updates to skills. Today's traditional 
students are more consumer-oriented than their predecessors, expecting 
institutions to meet all of their wants--academic, counseling, room, 
board, support services, technology and social life. This is 
encouraging an expensive competition among institutions to add the 
newest and largest bells and whistles.
    The emerging majority in higher education are part-time, working, 
and over 25 years of age. They are seeking institutions which offer 
them convenience, service, quality education, and low-cost. They are 
unwilling to pay for facilities, programs and services they do not 
use--fitness centers, elective courses, and intramural sports. They are 
prime candidates for stripped down versions of higher education, 
offered by online and non-traditional providers such as University of 
Phoenix and Kaplan, among others.
    This demand for such education is likely to accelerate in today's 
global information economy in which the half-life of knowledge is 
growing shorter and shorter, causing students to return to 
postsecondary institutions throughout their lives, seeking just-in-time 
rather than just-in-case instruction, tailored to their personal needs 
in content, calendar, and learning style.
    The migration patterns of Americans will also have an effect on 
higher education. Americans are moving from the Northern and Eastern 
regions of the country to the South and West. The Sunbelt is growing 
quickly due to this shift and immigration, creating a mismatch between 
the availability of higher education and student demand, particularly 
in California. This is likely to bring an influx of non-traditional, 
for-profit, and out-of-state higher education providers to the region 
to meet the need, which promises to exacerbate the condition of 
Hispanic, Black, American Indian and Southeast Asian populations as 
well as the poor, who have low high-school graduation, college 
attendance, and college completion rates. Even those who attend college 
are likely to be over-represented in non-university-based postsecondary 
education.
Postsecondary Providers
    The years ahead are likely to bring a dramatic expansion in the 
number and types of education providers. They will be for-profit and 
not-for-profit; brick, click, and brick and click; local, national, and 
international; and combinations thereof.
    This will be propelled by a for-profit community that views higher 
education as the next health care, an industry in need of a makeover 
because it is high in cost, inadequate in leadership, low in 
productivity, and weak in technology use. Higher education is also 
attractive to the profit-making sector because it is a growth industry, 
countercyclical in enrollment, subsidized by government, dependable in 
cash-flow, and a long-term purchase.
    The convergence of knowledge producers will further spur the growth 
of non-traditional education providers. Today, content and technology 
companies--publishers, software and hardware makers, media companies, 
libraries, museums, and universities--are all trying to build their 
market using the same technologies and creating products that look 
increasingly like courses.
Students and Postsecondary Providers
    The expansion of the postsecondary sector will offer students far 
greater choice in where, what and how they study. One can expect more 
mixing and matching--that is, studying at a variety of different 
traditional and non-traditional institutions, which can be expected to 
distinguish themselves by area of specialization, length of their 
courses of study, choice of instructional delivery systems, and cost. 
This, combined with advances in brain research with regard to learning 
and the development of software tied to those advances, will permit 
students to select the course of study most consistent with their 
personal needs and learning styles. Instruction is likely to be 
available to students 24 hours a day, 7 days a week at the location of 
their choice--at home, at work, on the commuter train, on vacation, in 
the hotel room. Postsecondary education is for the most part provider-
driven. In years ahead, it will become increasingly consumer-driven in 
the manner of media.
    Today, higher education is largely time-based. The amount of time 
in a classroom determines the number of credits earned, which when 
accumulated in sufficient number results in a degree. The idea of tying 
education to the clock makes less sense today. We recognize that all 
people learn at different rates and each person learns different 
subjects at different rates.
    The shift of America from an industrial to an information economy 
is speeding this realization and action upon it. Industrial economies 
focus on establishing common processes and the American university with 
its course-credit system came of age during the industrial era. In 
contrast, information economies are concerned with outcomes. Process 
and time are variables. This is profound change, shifting the focus of 
education from teaching to learning. All of our educational 
institutions, pre-k through graduate school, are being pushed 
reluctantly in this direction by government, which is demanding 
specific outcomes data and accountability. Pre-collegiate education is 
adopting this approach much more quickly than higher education, which 
ultimately will have the option of developing its own metrics or having 
the metrics thrust upon it by government.
    Combine this with the expansion of non-traditional providers and 
the diversity of their educational offerings. Students, in the course 
of their postsecondary lives, are likely to have had an assortment of 
learning experiences which may vary from a few hours to several years 
offered by a host of different providers. This does not translate 
easily into credits and degrees. Moreover, postsecondary training by 
employers is more likely to focus on mastery than time. As a result, 
given society's shift from process to outcomes and the lack of common 
meaning associated with academic degrees beyond time served, it would 
not be surprising to see degrees wither in importance in favor of 
competencies, detailing the skills and knowledge students have 
mastered. Every student would have a lifelong transcript or passport in 
which those competencies are officially recorded.
                     implications for accreditation
    The preceding observations are an attempt to read the tea leaves. 
They mark critical areas for change in accreditation. Several 
suggestions follow--some relate to the postsecondary system largely as 
it exists today and others to planning for more substantial changes in 
the future.

    <bullet> Expand the scope of institutions eligible for 
accreditation based more on student enrollment choices than 
institutional characteristics such as degree-granting status.
    <bullet> Follow student academic careers to gauge the nature of 
their educational progress in a system in which they may study with 
multiple providers.
    <bullet> Develop common standards for regional accrediting 
associations in order to avoid non-traditional providers shopping for 
the easiest possibility, and also to provide a common or shared set of 
standards for postsecondary education and greater cohesion in the 
current patchwork system.
    <bullet> Develop additional categories for accreditation--meets 
standards, exceeds standards, substantially exceeds standards--in order 
to go beyond the floor that accrediting currently establishes; to aid 
institutions in capacity building; and to inform consumers. 
Institutions should receive ratings in key areas such as academics, 
governance and finances as well as an overall assessment.
    <bullet> Place primary emphasis on the outcomes of postsecondary 
education, determining what data institutions should provide to the 
accreditor and what information to the public. This could be a vehicle 
for providing more frequent updates to accreditors and reducing the 
paperwork, hubbub, and cost associated with accreditation, all of which 
are substantial today.
    <bullet> Plan for an outcome- or competency-based system of 
postsecondary education. What would competency-based postsecondary 
education look like? What is the definition of a competency? How can we 
insure that competencies go beyond vocational skills and knowledge to 
include civic and personal outcomes? (The danger is that higher 
education will ``unbundle'' in the same fashion as media with the 
possible loss of essential activities and services.) What are the 
appropriate assessment and transcript recording mechanisms and actors? 
Should institutional accreditation be rooted in the competencies a 
postsecondary institution seeks to achieve? What is the meaning of 
traditional process concerns in outcome- or competency-based education 
in areas such as facilities, teaching methods, the role and kinds of 
faculty employed, support service such as libraries and staffing? Where 
does responsibility for access, completion, employment, financial aid, 
and so on rest in a world in which students may have educational 
experience with a host of providers? What role should accreditors play 
as these changes unfold--shaping or reacting? My preference is leading.
   the council for the accreditation of educator preparation (caep): 
        a model for reforming accreditation for the 21st century
    CAEP is a product of the merger of two specialized accrediting 
associations--the National Council for the Accreditation of Teacher 
Education and Teacher Education Accrediting Council. Based upon a major 
study of teacher education in America, I had been very critical of the 
oldest and largest of the two accrediting agencies, the National 
Council. My study found very low standards for accreditation; a higher 
proportion of less selective than highly selective institutions 
accredited; no significant differences in achievement between the 
classes of graduates of accredited and unaccredited institutions; 
employment of cookie-cutter process-based criteria for accreditation 
rather than outcomes; and expensive and heavily time-consuming 
accrediting requirements.
    CAEP redesigned teacher education accreditation to meet the needs 
of the 21st century. In merging the two existing accrediting 
associations, it established a common set of standards for teacher 
preparation. It expanded the pool of teacher education providers to be 
considered for accreditation to include all providers. It raised the 
floor for accreditation, requiring, for example, that students admitted 
to teacher education programs have at least a B average and test scores 
on nationally normed exams in the top third by 2020. It required a more 
rigorous teacher education program, demanding, for instance, an 
intensive clinical experience. It created a ceiling for teacher 
education, establishing several rankings for accredited institutions 
which included exemplary programs. It required outcome data for 
accredited institutions on k-12 student performance in graduates' 
classes. It also mandated annual reporting of key data such as 
graduation rates, placement rates, pass rates on licensure exams and 
default rates as well as surveys of employers and graduates. This 
offers both an early warning system of problems at accredited 
institutions and potential consumer information.
    CAEP was able to accomplish this for a number of reasons. First and 
perhaps most important was leadership from the association president 
and board chair. Second was creating a broad coalition of stakeholders, 
including critics, to develop the new requirements. Third was vision, 
an understanding of the changes that were occurring in higher education 
and the impact they would have on accreditation. Fourth was developing 
a process and calendar for carrying out the changes. Fifth was need: 
Teacher education was being widely criticized and there was pressure 
for the field to update and raise standards.
    The CAEP example shows that accrediting associations have the 
capacity to make the changes required for 21st century learning. The 
Federal Government has the ability to accelerate such changes in 
accreditation. This would involve carrots and sticks. In terms of 
carrots, it would be useful to develop an RFP and funding for 
accrediting agencies to merge, modernize and create common standards. 
In terms of sticks, it would be useful to take the lessons learned 
through the RFP process and establish accreditation association 
recognition criteria for the 21st century.

    The Chairman. Thank you very much, Dr. Levine.
    Dr. Wolff, welcome. And again, please proceed.

   STATEMENT OF RALPH WOLFF, J.D., FORMER PRESIDENT, WESTERN 
        ASSOCIATION OF SCHOOLS AND COLLEGES, ALAMEDA, CA

    Mr. Wolff. Thank you. Good morning, Senator Harkin, Senator 
Alexander, members of the committee.
    I appreciate the opportunity to be here.
    As you indicated in the introduction, I served for 17 years 
as president of the Senior College Commission of WASC. I 
recently stepped down and am moving into independent consulting 
on educational policy.
    My message today is simple and direct. Accreditation has 
served the country and the higher education system well, and 
has adapted repeatedly over the years. As we look to the 
future, however, the need is greater than ever for a quality 
assurance system that is more flexible and more responsive to 
both traditional and nontraditional students and institutions.
    Accreditation is changing, but needs to change even more 
and more quickly to respond to what is an incredibly dynamic 
environment today in higher education. Regional accreditation 
focuses on the whole institution and encompasses all activities 
on and off campus and online. Federal law identifies 10 areas 
in which accreditors must have formal standards, and 
accrediting associations go beyond those to address 
comprehensively institutional and student performance.
    It is an extensive process that involves self-study, review 
by peers, a written team report, and formal accrediting action 
by commissions comprised of diverse institutional and public 
members. The principle of peer-review was fundamental to this 
quality assurance process.
    We cannot rest on our laurels. I think there are eight 
areas where I would like to propose change could occur.
    No. 1, accrediting agencies need to more clearly define and 
articulate their role in addressing key issues of public 
accountability. We are a membership organization, but we serve 
the public interest and need to be more clear how we do so.
    No. 2, accreditation needs to become more transparent. The 
process is opaque right now. You cannot see what most 
accreditors do. Since June 2012, the WASC Senior Commission has 
made all team reports and decision letters public on the WASC 
Web site for all to see. The sky has not fallen. Confidence in 
accreditation is best assured with full transparency.
    No. 3, there is a need for clearer and more rigorous 
benchmarks for student learning. We need to be able to answer 
how effective is the learning achieved by today's graduates. 
WASC Senior's most recent revision to our standards require 
each institution to demonstrate graduates are proficient at or 
near the time of graduation in at least five core competencies: 
written and oral communication, critical thinking, quantitative 
reasoning, and information literacy.
    Institutions and accreditors alike need to articulate to 
students and to the public what a degree or a certificate 
means, not only in terms of what courses were taken, but what 
students know and can do.
    No. 4, accreditation needs to address college retention and 
completion as a key element in the accrediting process. The 
challenge here is in the evaluation of the data. What is an 
appropriate completion rate for each institution? No single 
bright-line will work for every institution, but still, we must 
be able to say when an institution needs to improve its 
completion rates and then hold those institutions accountable 
for improvement.
    No. 5, more needs to be done to demonstrate that all highly 
entrepreneurial institutions, nonprofit and for-profit, are 
subject to close review of recruitment practices and assure 
quality in all their programs.
    No. 6, we need to right size the cost and expectations of 
the accrediting process to align more closely to the risk 
presented by each institution. To do this, however, the 
Department of Education will need to relax its requirements 
that each institution address and demonstrate compliance with 
every accrediting standard in each comprehensive review.
    No. 7, as innovations increase, and they truly are, we must 
balance openness with the monitoring of new programs and 
institutions so as to be able to demonstrate their integrity 
and their quality. Innovation is needed, to be sure, but not 
all innovations will be effective. For accrediting agencies to 
develop new approaches, the Department's recognition process 
needs to become far more flexible and adaptive as well.
    No. 8, many innovations fall outside the eligibility 
criteria of regional accreditation. MOOC's, for example, are 
course-based; they are not degree-centered. Sub-degree programs 
like Straighter Line and others operate independently from 
accredited institutions.
    For these innovations and others, experimental or pilot 
approaches should be developed where there is a much more 
conscious, designed-built approach with frequent and 
transparent monitoring. And I believe such models can be 
created.
    In conclusion, accreditation should continue to play a 
central role in the quality assurance system of American higher 
education. At the same time, to address the dynamic changes 
ahead, accreditation will need to become far more transparent, 
adaptive, and responsive.
    Thank you.
    [The prepared statement of Mr. Wolff follows:]
               Prepared Statement of Ralph A. Wolff, J.D.
                                summary
    As much as accreditation has withstood the test of time, changes 
within and outside higher education are calling for new approaches. 
Regional accreditation has, over time, adapted to many changes in its 
100-year history, but the rapid pace of change and the scale of issues 
facing higher education today call for accreditors to do more. Changes 
are already being made to standards and processes to respond to this 
changing environment but accreditors will need to:

    <bullet> establish itself more effectively as a voice for public 
accountability;
    <bullet> increase transparency;
    <bullet> establish clearer benchmarks for learning results;
    <bullet> address completion responsibly;
    <bullet> right-size the cost and effort involved in the accrediting 
process;
    <bullet> assure the quality and integrity of highly entrepreneurial 
institutions (and programs), and
    <bullet> develop or collaborate with experimental or pilot programs 
for assuring the quality of new entities and activities that fall 
outside the scope of eligibility of regional accreditation.

    Accreditors have done far more to encourage innovation than they 
get credit for, and have been leading institutions into areas that are 
part of this new accountability agenda, such as the assessment of 
learning outcomes. Already accreditors have worked to develop 
procedures for the approval of competency-based programs, for example, 
as well as credit for prior learning.
    Accreditors will also need to determine how to address the new 
ratings system developed by the Administration, and work with 
institutions and the Administration to ensure that data used is 
accurate. Comprehensive institutional accreditation reviews will 
necessarily go beyond these indicators but need to ensure that 
integrity, quality and effectiveness are maintained, while being open 
to innovation. At the same time, accreditors need to balance assuring 
the quality of innovations so as to warrant public trust, while 
removing real and perceived barriers. Further regulation by the 
Department of Education will similarly need to be assessed to ensure it 
allows accreditors to make changes, and do not stymie either 
institutions or accreditors from being more responsive. Alternatives to 
regional accreditation that have been proposed are weaker than the 
current system in protecting students and the public, and assuring 
institutional quality and integrity.
                                 ______
                                 
    Good morning, Senator Harkin, Senator Alexander and members of the 
committee. Thank you for this opportunity to address the issue of 
accreditation as a key quality assurance process for higher education 
in the United States, and its ability to meet the needs of 21st Century 
learning.
    I have worked in higher education for over 40 years, and served as 
president of the Senior College and University Commission of WASC, the 
Western Association of Schools and Colleges, for 17 years. WASC is one 
of the six regional accrediting associations recognized by the U.S. 
Department of Education and the Council of Higher Education 
Accreditation (CHEA). I stepped down as president August 30, 2013 and 
until December 31, served as a Senior Advisor, and thereafter will be 
serving as an independent consultant on higher education and 
accreditation issues. Thus, I am addressing you as one with extensive 
experience in accreditation and higher education, but I do not serve 
any longer as an official representative of any accrediting agency. My 
comments are directed primarily to the regional accrediting system, 
which collectively accredits over 3,000 institutions.
    This hearing, and the discussions that will occur as part of 
renewal of the Higher Education Act, come at an incredibly dynamic 
period for higher education. At a time when higher education is seen as 
critical to the future of our country, there are significant criticisms 
of both higher education and accreditation as a system assuring the 
quality and effectiveness of these institutions. Some are beginning to 
question whether degrees will continue to be the most valuable 
credential or whether students need to acquire ``stackable 
credentials'' and badges that display more about what someone can do; 
simultaneously, we are seeing the deinstitutionalization of learning as 
more and more students attend multiple institutions and bring with them 
courses and learning activities from a variety of sources outside 
traditional institutional settings, such as credit for prior learning, 
courses from MOOCs, iTunes U, TED.com and other providers. 
Increasingly, technology is being used to create adaptive learning 
systems that augment, and will possibly replace, some or all of the 
instructional functions performed by faculty. And new entities are 
being formed that are challenging traditional notions of delivery and 
costing structures. While many of these changes are emergent, 
(re)defining and assuring quality at traditional and innovative 
institutions alike is the challenge we all face for the future. It is 
likely that the pace of change will only increase with many approaches 
that we cannot foresee today, just as we did not foresee the advent and 
growth of MOOCs even 3 years ago.
    I will state at the outset that I believe that accreditation can, 
and should, remain a vital part of the quality assurance system for the 
present and future, but it is clear that accreditation, and all other 
parts of the higher education system, are going to need to adapt to 
these changes. While president of WASC I tried, with considerable 
success, to reframe our agency as a vibrant voice for public 
accountability. I believe there are lessons to be learned from the work 
we have done, as well as important steps underway with other 
accreditors to respond to these changes. Accreditation is going to need 
to respond to the concerns that critics have asserted, rightly or 
wrongly, in a responsible way, while at the same time, respond to the 
many innovations occurring today and in the future. This will need to 
include support for experimental or pilot efforts for both traditional 
and new institutions and entities.
             i. background and description of accreditation
    Accreditation is over 100 years old, established by schools, 
colleges and universities to create common standards and assure quality 
across institutions. It has adapted repeatedly to serve the diverse 
array of institutional missions within the American higher education 
system. In the past 50 years, and especially in the past 20, the number 
of specialized, online and for-profit institutions has increased 
significantly.
    All accrediting agencies use a similar process--institutions 
undertake reflective self-studies framed by the accrediting agency's 
standards, with the goal of identifying areas of strength and needed 
improvement, followed by a review of the institutional report and a 
site visit by a team of specially trained peer reviewers, senior level 
experts who assess the accuracy of the institution's self-study and 
issue a report with commendations and recommendations. The professional 
judgment of these volunteer peer reviewers is the cornerstone of the 
accrediting process and these reviewers are matched to the type of 
institution being reviewed to ensure an in-depth review. These peers 
undertake their reviews with keen awareness of their responsibilities 
to serve the public interest.
    Site visits provide an opportunity to verify information submitted 
by the institution and interact with faculty, students and staff in 
ways that no purely documentary review ever could. Site visits also 
enable teams to understand each institution's context in greater depth 
so that findings and recommendations for improvement are more authentic 
and realistic. The institution's self-study and the team report are 
then reviewed by an accrediting commission of institutional and public 
members who make an accrediting decision.
    The standards developed and applied by each agency are periodically 
reviewed and revised through surveys and consultations with a wide 
range of constituencies, including but not limited to the institutions 
themselves, as well as students, business groups and policy leaders so 
that they represent not only effective minimum standards of 
accountability but also lead institutions to greater quality and 
effectiveness. In the most recent WASC review of standards, a series of 
papers were commissioned to identify areas of needed reform along with 
extensive surveys and meetings, leading to calls to place students more 
in the center of the accrediting process through an emphasis on 
completion and demonstrated learning outcomes.
    In addition to these regular cycles of comprehensive review that 
range from every 6 to 10 years depending on the region, accrediting 
agencies undertake close monitoring of institutions through annual 
reports, required prior approval of new off-campus and distance 
education programs, mergers and other changes in between cycles.
    Additionally, progress reports and special visits are often 
required when needed to assure institutional followup to key issues.
    Accreditation typically means something different for institutions 
at different stages of maturity. For a new institution, accreditation 
is largely a gatekeeping function to ensure that the institution meet 
all standards at least at a minimum level of compliance. For well-
established institutions, accreditation is more about identifying areas 
of needed improvement, and questions about how to avoid rote compliance 
for these institutions has led to different approaches by each of the 
regions to address this concern. Data collected by regional accrediting 
associations reflect that approximately 40 percent of institutions 
initially applying for accreditation do not achieve it, and well over 
50 percent of institutions undergoing comprehensive review are required 
to have additional monitoring and followup to ensure continued 
attention and progress in addressing areas of needed improvement.
    As institutional accreditors, the standards adopted by regional 
agencies are necessarily comprehensive in nature. Federal law and 
regulations require that accreditors have standards that address 10 
specified areas. (Section 602.16) There are many elements to ensuring 
institutional and educational effectiveness and standards adopted by 
accrediting agencies reflect these multiple dimensions, going beyond 
the areas identified in law. The standards are intended to assure, 
individually as well as collectively, institutional integrity, 
sustainability and effectiveness. Standards address such areas as 
sufficiency of financial resources, the sufficiency and qualifications 
of faculty for the range and types of programs offered, technology 
resources and support; the currency and quality of educational 
programs; student support services; decisionmaking processes; planning 
for the future; institutional data collection and analysis against key 
institutional metrics and more. Institutional integrity is also 
reviewed in depth through review of institutional promotional 
materials, recruitment and admissions practices, and financial 
statements. Regional accreditation is of the whole institution, and 
since each course and program cannot be reviewed individually in large 
comprehensive universities, focus is placed on quality assurance 
systems, and whether institutions themselves have clear goals, 
educational outcomes, and analyze data on their own effectiveness.
    While review of institutional resources and processes are important 
for assuring institutional sustainability and the creation of 
conditions leading to quality, increasingly accreditors are calling for 
demonstrating institutional effectiveness in terms of demonstrated 
achievement of learning outcomes for each of the institution's 
educational programs. This is reflected as well in Federal law in 
section 601.16 as well and characterized as ``success with respect to 
student achievement.'' Multiple studies have shown that accreditors are 
the primary driver of institutions identifying and assessing student 
learning outcomes beyond grades. This has led to a shift in focus from 
teaching to learning in the accrediting process, and institutions are 
undertaking multiple assessments of student learning through the use of 
rubrics, portfolios, local and nationally normed tests, and other 
measures.
    Institutions across the country have engaged in serious efforts to 
identify and measure learning outcomes in general education and in each 
major, and have been supported by efforts of many groups, such as the 
American Association of Colleges and Universities (AAC&U) essential 
learning outcomes projects. At WASC we even created an Assessment 
Leadership Academy with a 9-month certificate program to prepare 
experts in assessment to work within their own institutions; the Higher 
Learning Commission runs its own assessment institute, and SACS offers 
a well-attended summer institute on assessment. Thus, accrediting 
agencies have been leading the higher education community in not only 
requiring assessment of student learning outcomes but also training 
faculty and staff toward learning centered institutions.
ii. responding to accountability concerns--accreditation and the public 
                                interest
    Over the past several years, critics have charged that 
accreditation has not been a strong enough force for institutional 
accountability and that it has failed to protect the public interest. 
Accreditors, in turn, discuss institutions ``turned around'' as a 
result of accreditation actions and its ongoing monitoring, and of 
dramatic changes resulting from the peer-review process. In my view, 
there is much to support both the concerns about accreditation and our 
defense--but the two sides are not effectively communicating and 
addressing each other. Along with the increased importance of higher 
education, and its cost, greater attention has been placed in the 
policy world on what have become key markers of the higher education 
system's effectiveness--completion rates, learning results, and 
institutional truthfulness and integrity in recruitment practices and 
representation of future job prospects, licensure, etc. Because 
accreditation deals with each institution individually and in relation 
to its distinct mission, there is little systemwide reflection on how 
and to what extent the accrediting process addresses the overall 
effectiveness of higher education in each region, let alone nationally. 
As well, accreditation has historically seen itself as a member-driven 
organization needing the consent of its membership for the adoption of 
new standards and new processes.
    The times have changed, and increasingly accrediting agencies have 
redefined their purpose to serving the public interest along with that 
of their membership. For example, both the Higher Learning Commission 
and WASC have standards calling for institutions to demonstrate that 
they serve the public interest. The significant investment of time 
devoted to the accrediting process by institutions, teams, and 
commission members serves the public interest, but as key indicators 
become more central to the policy debate, it will be important for 
accrediting agencies to more clearly define how they are responding to 
these issues or lose their relevance to these important policy debates.
    It is possible for accreditation to continue to play a significant 
role in addressing policy concerns and still maintain its mission-
centered approach to institutional evaluation--but only by becoming 
clear and direct in making these issues more visible and central to the 
accrediting process. Several such issues, and needed steps, follow.
    Embracing a clear role for accreditation to serve as a voice for 
public accountability. While accreditation is a creation of the 
institutions themselves, and funded through dues and fees from those 
institutions, the accrediting community needs to publicly embrace and 
define more clearly its role in assuring the accountability of the 
institutions each agency accredits. As described below, I believe that 
greater transparency is central to this charge. But equally important 
is for each agency to define how it is responding, through its 
standards, processes and actions, to the call for greater 
accountability of higher education in such key areas as retention/
graduation, learning results, supporting student needs and 
responsiveness to the changing environment in higher education. The 
following chart reflects that this is a new role for accreditation and 
one that can and should be articulated by each agency. In other words, 
while retaining their comprehensive approach to institutional quality 
and integrity, accrediting agencies can, and should, articulate and 
demonstrate publicly how they are addressing key issues of 
accountability in the accrediting review process.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Increasing Transparency. Federal regulations require that 
accreditors provide basic information about an institution's status 
with the agency, the date of its next visit, when first accredited and 
that a statement of reasons be issued when an institution is placed on 
a sanction. For accreditation to assure confidence in its actions, 
there needs to be far greater transparency. There are concerns that 
candor would be lost, but as part of the public accountability role 
accreditation needs to play, more information needs to be readily 
available to policymakers and the public on what accreditation teams do 
and the actions accrediting commissions take. Nearly all public 
institutions already are required to make their accrediting reports 
publicly available. The WASC Senior College Commission took the step in 
June 2012 to require that all team reports and Commission decision 
letters be made public on our Web site. This was done after 
consultation and support from the institutions in the region, and has 
been accomplished with few problems. Institutions can choose whether to 
make their self-studies public but it is important for the public to 
see not only the final decision, but also the basis for actions that 
accreditors take. The Higher Learning Commission of North Central is 
moving in this direction as well and the Middle States Association has 
been providing more information about its actions. If accrediting teams 
are not focused on the right issues, or not doing an effective job, 
then the work products of the process should be available for review, 
comment and research. Confidence in accreditation is best established 
when all can see what we do.
    Establishing benchmarks for learning results. For the past 20 years 
tremendous emphasis has been placed in the accrediting process on 
specifying and assessing learning outcomes. Studies have been 
conducted, however, that challenge the effectiveness of college and the 
learning gains of students. Employer surveys also question the 
preparedness of many of today's graduates for the workplace. One of the 
greatest values of accreditation is that it evaluates institutions in 
the context of each institution's mission and student body 
characteristics. Cal Tech and Pomona College, for example, have 
different missions, and student bodies, than California State 
University, San Bernardino or Laney Community College. A single measure 
of learning would not be useful or appropriate for all institutions, 
yet we cannot escape the question whether the learning of graduates in 
key areas meet appropriate standards or benchmarks. Accreditors, 
working with institutions, must be able to demonstrate that graduates 
are proficient in key areas that are foundational for their future. 
Assessment needs to move beyond process to an evaluation of results. 
This too needs to be part of a new public accountability agenda that 
accreditors are moving toward and need to embrace. Is the level of 
learning of the institution's graduates ``good enough''? In the most 
recent revisions to the WASC (Senior) accrediting standards, we 
required each institution to demonstrate that core competencies in five 
key areas be established for all graduates--in written and oral 
communication, critical thinking, quantitative reasoning and 
information literacy, as well as in other areas defined by the 
institution as important to their mission, as well as in the discipline 
in which the degree is awarded. Such a requirement was contested and 
deeply debated throughout the region, and finally adopted by the WASC 
Commission with the understanding that each institution needed to 
define, and establish evidence for its proficiency standards for 
graduates, and that there could be variation within the institution as 
well depending on the student's major field of study. Already, 
institutions are hard at work defining and developing tools for 
assessing performance beyond the assessment efforts already underway. 
It will be important to recognize that no single test or instrument can 
fully measure the complexity of learning, and the application of skills 
needed for 21st Century learning. Multiple indicators are needed. Teams 
will also need to be trained how to determine and evaluate what are 
appropriate levels of learning for institutions, and with reports now 
being made public, these efforts will be transparent.
    In addition, several accrediting agencies have piloted the 
application of the Degree Qualifications Profile, developed by a team 
supported by the Lumina Foundation, as an optional framework for 
evaluating degree requirements and the outcomes of learning. SACS, for 
example, has used the DQP for a project with HBCU's; WASC (Senior) 
piloted it with 28 institutions, several of which used the framework to 
revise their degree program.
    It is understood that the visibility and impact of these efforts 
need to be better communicated--both by institutions displaying 
learning results with appropriate context, and accrediting agencies as 
central elements in the accrediting process, with the agency's 
evaluation of learning results made public, to address growing concerns 
about quality across the higher education system.
    Addressing completion responsibly. One of the thorniest issues is 
the role of accreditation in improving retention and graduation 
responsibly given the diversity of institutions, differing student 
characteristics, and difficulty of getting complete and accurate data 
on the mobility of students. Institutions need to take greater 
responsibility for collecting and analyzing retention and graduation 
data, disaggregated by different characteristics, and establish 
meaningful benchmarks for defining an effective level of completion. As 
part of the public accountability agenda for regional accreditation, 
more needs to be done to make an evaluation of retention and graduation 
data central to the accrediting process. This issue was a key element 
in the redesign of WASC (Senior) accreditation, and a review of 
disaggregated institutional data has become a major focus of the 
accrediting review process. The Higher Learning Commission, the Middle 
States Association and the New England Association have also made such 
reviews more central to their processes. The challenge is in the 
evaluation of the data--what is an appropriate completion rate for this 
particular institution? How can the institution increase completion 
while also improving learning results? No single number or metric works 
for each and every institution, yet there are clearly institutions with 
rates of completion that are comparatively low and those with 
significant completion rates, especially for underrepresented groups. 
Accreditation is beginning to call this out and monitor efforts to 
address and improve retention. Such efforts will take time and 
commitment on the part of institutions and accreditors as well as 
sensitivity to the fact that improving retention is not always easily 
addressed, and it takes time to determine if such efforts are 
successful.
    As the administration develops its new rating systems, accreditors 
will need to consider the data elements reflected in this new system 
and determine how to incorporate the data into their processes. Of 
course, the accuracy of data will be critical, and it will be important 
as well to probe in depth the data in relation to each institution's 
mission and context.
    Improving retention must be coupled with efforts to monitor and 
improve learning so that the two efforts are intertwined. Completion 
without effective learning creates a hollow statistic, while efforts to 
improve learning standards must take into account the impact on student 
retention.
    Assuring the quality and integrity of highly entrepreneurial 
institutions (and programs). This committee has raised serious 
questions about the effectiveness of accreditors in reviewing the 
practices of publicly traded for-profit institutions. While not all 
publicly traded institutions were found to engage in questionable 
practices, the hearings clearly revealed that more needed to be done by 
both accreditors and the Department of Education to discover and 
address such practices. Since these hearings, considerable effort has 
been undertaken to tighten reviews of entrepreneurial institutions, 
for-profit and nonprofit alike, through more detailed reviews and 
additional monitoring activities. Efforts to acquire accreditation 
through the acquisition of struggling institutions has become more 
closely monitored and infrequent, and efforts to incubate innovative 
new programs or institutions through affiliation agreements with 
accredited institutions creates a Catch-22: the new program or 
institution seeking to develop into an independent and separately 
accredited entity runs afoul of the accreditation requirement that the 
accredited institution must take full responsibility for all academic 
components offered in its name. Ironically, heightened oversight to 
assure quality and integrity of these arrangements is now associated 
with being a barrier to innovation. A middle ground must be found and 
some suggestions are below.
    Rightsizing the cost and expectations of the accrediting process. 
Engaging in self-study and institutional review takes on different 
characteristics for a new institution seeking initial accreditation 
than a well-established institution that has been reviewed multiple 
times with no major issues or problems. If one were to view the 
accrediting process as a periodic academic and institutional audit 
comparable to (but even more comprehensive) than a financial audit, the 
costs of accreditation would seem quite reasonable. Furthermore, to the 
extent that institutions are able to use the self-study and team review 
process to make needed changes, as all accreditors encourage, the costs 
of the process are typically of internal value as well. Nonetheless, a 
number of institutions have called into question whether the 
accrediting process needs to be the same, and as labor intensive, for 
all institutions, especially those which have always had highly 
successful or positive reviews. Each regional accreditor has attempted 
ways to make the process relevant to the institution being reviewed, 
and the New Pathways process of the Higher Learning Commission is one 
approach. Both SACS and WASC (Senior) use a combination of offsite and 
onsite reviews to do as much as possible offsite through review of 
documents and institutional data, and to focus the onsite review to 
institutional improvement.
    One of the barriers to radical change comes from interpretations by 
the Department of Education staff that all institutions must undertake 
a comprehensive self-study against every accreditation standard, and 
all evaluation teams must evaluate each institution against every one 
of these standards. While technology permits electronic transmissions 
of material, radical changes to the process needs to be explored, 
including reviews of publicly available information and waivers of 
certain standards to allow for more limited and focused self studies 
(or redefining these reports altogether) and using new approaches to 
institutional evaluation. Such efforts would need to be through 
collaborative efforts of accreditors, institutions and the Department 
of Education and should be undertaken so that the process can be more 
effectively tailored to each institution's history and context.
   iv. responding to innovation and the changing landscape of higher 
                               education
    Over the past decade concerns over accountability took primacy when 
addressing the role of accreditation. In the past 2 years, however, the 
dramatic innovations in higher education have led to questioning 
whether accreditation can adapt quickly enough to these changes or has 
become a barrier to change. We are seeing hundreds of MOOC courses 
offered for free by Coursera, Udacity and edX, significantly lower cost 
courses offered with and without faculty support by Straighterline, 
free universities such as University of the People, lower cost programs 
being piloted without financial aid by Patten University/UNow, 
competency-based programs that do not rely directly on credit-hour 
designations such as those developed by Southern New Hampshire 
University and University of Wisconsin (and others), adaptive learning 
software tied to courses such as those developed by the Online Learning 
Initiative (OLI), badges developed by the Mozilla Foundation and being 
used by Purdue and UC, Davis, innovative programs such as that 
developed by Minerva and more. More and more attention is being placed 
on employer needs, identifiable ways for employers to know what today's 
graduates know and can do, developing a wider range of certificates to 
acknowledge completion of competencies, packetization of learning 
material such as that developed by Salman Khan, creation of 
``stackable'' credentials, and on and on. Even more change is likely to 
come, at an ever-increasing pace, in the future. As well, as more and 
more digital natives enter college, many will be bringing with them new 
digital skills and expectations, as well as a set of learning 
activities for which they will seek recognition in the form of credit 
and advanced placement.
    What is clear is that tremendous change is occurring, and whether 
or not every innovation will succeed is less significant than how to 
determine which innovations are of sufficient quality to deserve 
recognition in the form of credit award or financial aid. Here is where 
accreditation may be able to play a role but structural issues may be a 
limiting factor for some innovations. Currently, all regional 
accrediting agencies accredit only institutions that award degrees. 
Thus, institutions offering courses and subdegree programs are 
ineligible for regional accreditation.
    Regional accreditation has been far more open to innovation than 
its critics give it credit for. For example, online universities have 
been accredited for some time; so too have many institutions with 
highly distinctive missions or delivery processes. In response to the 
development of competency-based programs moving off the credit-hour 
system, New England, Southern, the Higher Learning Commission and WASC 
have all developed criteria for the review of such programs and 
approved. These review processes are designed to protect students and 
assure quality.
    Some critics have expressed concerns that the accrediting process 
takes too long for startup institutions, and the lack of accreditation, 
or access to financial aid, stymies their development and recognition 
of their activities. It is true that for new totally new institutions, 
the process typically takes a minimum of 4 to 6 years to move through 
the multiple stages to initial accreditation. Partly, that is due to 
Federal regulations that require at least one class to have graduated 
before institutions can be accredited. But the time to become 
accredited is an insurance policy that the institution has the 
stability and quality to sustain its operations and warrants 
recognition by peer institutions as well as the public.
    The Department of Education has recently put forth a proposal to 
develop the experimental site concept to promote innovation. There may 
be value in considering whether to develop an experimental accrediting 
process for innovative programs and activities that are currently 
ineligible for regional accreditation, as a complement to the regional 
system. Rather than accrediting individual courses, such a process 
could carry over the principle of institutional accreditation for all 
courses or programs offered by the entity, based on quality principles 
newly developed for such activities, emphasizing outcomes and results, 
and using a ``design-build'' model of approval and ongoing monitoring.
    What is clear is that trying to develop more regulations to 
encompass current and yet-to-be developed innovations will only stymie 
new creative ideas and projects. I serve on a quality assurance board 
assessing educational institutions operating in the free zones of 
Dubai, where a review system is in place as an alternative to the 
national system of accreditation. Here in the United States, we may 
want to experiment with ``innovation zones'' in which new models and 
approaches could be piloted and reviewed by a newly developed process 
designed through collaboration between the Department, institutions, 
employers, students, and accreditors.
              v. evaluating alternatives to accreditation
    There are those who suggest that accreditation has outlived its 
usefulness and should be replaced by other systems of quality 
assurance. I am not convinced that alternatives that have been proposed 
would be more effective; in fact, I see the alternatives that have been 
suggested as far weaker than the current system in protecting students 
and the public, and assuring institutional quality and integrity. 
Alternatives that have been proposed include:

    <bullet> A public disclosure approach. There are those who suggest 
that disclosure of key institutional characteristics would provide 
sufficient information for consumer choice regarding quality and 
integrity. For some, this would have the Federal Government going 
beyond its current threshold reviews of institutional finances and 
defining indicators of minimum performance in other areas. It is not 
clear from such proposals who would assure the accuracy and 
truthfulness of institutional statements. A free-market approach would 
create even greater opportunity for mischief and misstatements. As 
mentioned above, the new administration ratings system will provide 
disclosure of information in relation to several key areas, but not 
reflect the comprehensive dimensions that accreditors review at each 
institution.
    <bullet> Greater assertion of Federal oversight. Others have 
suggested that greater Federal intervention should be exercised in 
place of accreditation or assuming some of the threshold compliance 
role of accreditation. Already, there are more than 100 regulations in 
place for the recognition of accrediting agencies, and many additional 
sub-regulatory interpretations going beyond this regulatory language. 
More regulations do not necessarily lead to greater quality or 
productivity, but often increase the administrative burden of the 
accrediting process. Given the inability of regulations to be applied 
contextually or adaptively, this approach would undoubtedly limit 
institutional reviews to minimum compliance with Departmentally defined 
metrics, but there would be no impetus for promoting institutional 
excellence or improvement, or innovation.
    <bullet> Creating separate processes or accrediting agencies for 
different categories of institutions. There are those who suggest that 
accreditation should be segmented by institutional type. Apart from the 
problem of defining what would be the types or categories of 
institutions that would qualify for segmental accreditation, this 
approach would need to define differential standards for each category. 
Such an approach could well create a de facto ranking system for higher 
education, causing those institutions that serve underrepresented 
populations to be seen as ``lesser than'' elite institutions. Today's 
graduates need to be able to compete an open marketplace and one of the 
greatest virtues of regional accreditation is that it puts all 
different types of institutions under a common review process.
                   vi. recommendations and conclusion
    I have presented a number of recommendations throughout this 
testimony. There is still a significant role for accreditation to play 
in the quality assurance system for American higher education. As much 
as accreditation has withstood the test of time, changes are being made 
to standards and processes to respond to the changing character of 
traditional and nontraditional institutions alike. But, as I have 
stated earlier, more needs to be done to position accreditation to 
become a more robust and visible voice for public accountability in key 
areas, and to assure that it is responsibly and expeditiously 
addressing educational innovation.
    As we move into a future where change will even be more rapid and 
dynamic, experimentation and new approaches should be developed as 
complementary to existing accreditation processes. If successful, these 
experimental approaches thereafter could be integrated into existing 
accreditation structures or developed into sustainable enterprises in 
their own right. To do so, however, there will be need for the 
recognition process of the Department of Education to become more open 
and flexible to allow for new and more adaptive evaluation approaches 
that could be implemented by crediting agencies for traditional and new 
institutions alike.
    With the dialog continuing over the coming months as to how best to 
respond to the many changes and issues affecting higher education, we 
all need to remain open to new ideas and approaches, and be willing to 
collaborate for a better future for today's and tomorrow's students.

    The Chairman. Thank you, Dr. Wolff.
    Now, we will turn to Dr. Phelan. Welcome, Dr. Phelan, 
please proceed.

   STATEMENT OF DANIEL J. PHELAN, Ph.D., PRESIDENT, JACKSON 
                      COLLEGE, JACKSON, MI

    Mr. Phelan. Good morning, Chairman Harkin, Ranking Member 
Alexander, and members of the committee.
    I am pleased to be here to share some insights. I come to 
you not only as a community college president, but also as a 
boots-on-the-ground person that actually serves as a consultant 
evaluator for the Higher Learning Commission, the largest of 
the regional accrediting bodies. So I bring that perspective 
with me today.
    I concur with my colleagues that American higher education 
is highly successful overall and I believe that regional 
accreditation is, in part, responsible for that success. What 
sometimes is lost in the conversation is that accreditation is 
really a process of meeting the organizational, program, and 
service standards, and that those are developed by consumers; 
they are developed by stakeholders. They are developed by 
internal and impartial individuals as well, professionals, 
regional and national organizations giving us insight into what 
that should be.
    Accreditation's first part indicates that there is an 
accredited organization that has achieved an appropriate level 
of organizational proficiency. That there are mechanisms in 
place for ensuring that there is continuous quality improvement 
in the work and that we are delivering service and mission, as 
so stated by our organization. Accreditation also acknowledges 
a level of organizational competence for which we are 
responsible. It is comparable to what other institutions are 
doing. It allows us to have a basis of understanding for one 
another. And equally important in my view, particulars present, 
that it identifies areas of need, areas where we need 
improvement. That is important.
    At my institution, for example, I appreciate getting the 
responses from the consultant evaluators and the team reports 
later that talk to me about areas where I need to improve, such 
as assessment or that I need to improve my metrics for 
accountability of students. I may not always like what they say 
to me, but I appreciate that there is an external third party 
who has provided this evidence for me that I can use within my 
organization to help prompt change, and that is helpful.
    Accreditation also means that as a college, we have 
numerous management controls in place that are related to 
accountability and efficient use of our resources. Think of it 
as being very similar, in lots of ways, as to an audit in your 
organization. You bring in external people who come in. They 
are adjunct from your organization providing insight about: are 
you living up to your mission? Are you living to the value 
proposition that you espouse?
    I also think that accreditation does a lot of good work 
that is not being recognized. Regulation can, and should, focus 
on ensuring baseline requirements and minimums, and 
accreditation can, and does, push institutions beyond 
themselves and pushing them toward excellence. That is what I 
need. That is helping drive change with my board of trustees 
and with our faculty and staff. It is that excellence, not 
minimums, that we need.
    For me, the Higher Learning Commission has provided those 
options. For example, our institution participates in an 
alternative approach to accreditation, built around the 
Baldrige Quality Awards. It is a 7-year cycle called the 
Academic Quality Improvement Project. It is allowing us to 
follow specific standards of achievement, and we report that 
every year to the accrediting body and then we have a team of 
visitors in 7 years.
    I would also let you know that the peer-review process is 
incredibly important and I take the entire process--not only as 
a peer reviewer but as a president--I can tell you that our 
colleges, our boards take this entire process extremely 
carefully, and we understand it, and we embrace it as an 
important part of the process. It sets the gold standard by 
which we announce to the public, to our employees, and to our 
students that the work we do here is good. It is acceptable by 
other receiving institutions of our college credit.
    I will tell you that, overall, I see for Jackson College, 
an extreme benefit to the peer-review process. It allows me to 
have a common language, a way to share and describe, and work 
together with my peer institutions, whether they be other 
community colleges or baccalaureate granting institutions.
    Clearly, higher education is changing at a rate and a pace 
that we have never seen before. In many ways, this change is 
disruptive and it is affecting us, and we have seen more of it 
than we have in the last 50 years.
    But because so much is changing rapidly in higher 
education, we do not want to hamper productive innovation. So 
from my perspective, Congress should seek to guide 
accreditation toward quality, but insist on flexibility, doing 
so, so that the regulations that derive from law do not freeze 
accreditors, and thus institutions, into modalities that, in 5 
years, we may find dated, or irrelevant, or outmoded.
    I believe that much of the ongoing criticism of higher 
education today is not by the system, but because of the pace 
of change in higher education; in some cases, the change in 
demographics of the students that we serve. Lots of it are 
being affected by the economy, which is demanding that more and 
more Americans access and succeed in higher education.
    That said, accreditation alone does not bear the 
responsibility entirely here for the shortcomings of the 
system. It is not designed to do that. Institutional officials, 
trustees, legislators, Government officials, even the public, 
all play a significant role in this process. We are all 
responsible. The ones who count most are the students; they 
vote with their feet.
    Accreditation does allow for substantial modifications 
within the academic structures of which we are all familiar. 
Many factors influence the different course and programs that 
we offer. In truth, State Government, sometimes the politics 
within our institution are the barriers themselves and 
obstacles to change within our organization; not so much 
accreditation in, and of, itself.
    It is difficult for me to contemplate what would replace 
accreditation. So I agree with my colleague, Dr. Levine. I 
think some improvements would be beneficial, but I do not think 
we throw the system out. I think accredited institutions can 
generally add new forms of learning if they find it consistent 
with their mission and standards.
    I also want to call the important attention to transfer, 
successful transfer of credit remains an incredibly deficient 
area of higher education systems. I think accreditors cannot be 
the primary focus of solving this problem, but we do believe 
that the issue needs to be raised in all quarters, and we 
further believe that the Federal Government needs to force the 
States to take a more active role in doing that. We are all 
accredited institutions; we should have that worked out.
    In my view, excellence is always within the framework of a 
particular institution's mission and the tolerance for variety 
and mission is crucial to our Nation's ability to develop its 
highly diverse population. So that each person has the 
opportunity to be the best that he or she can be.
    The ability to tolerate variety of mission while still 
bringing in critical judgment to bear on the mission and 
fulfillment of that mission is what accreditation can, and 
does, do. Congress should seek to strengthen accreditation, not 
substitute regulations or focus on a small number of 
quantifiable indicators. It is important to look at graduation 
or completion rates, for example. But what accreditation adds 
to that is the ability to look, and show, and demonstrate how 
and what we are to students, and what they learn, and what they 
need to learn in order to graduate.
    I thank you for providing me this opportunity to appear 
before you this morning, and look forward to questions that you 
might have.
    [The prepared statement of Mr. Phelan follows:]
               Prepared Statement of Daniel Phelan, Ph.D.
                                summary
    Accreditation's Peer Review Process is Partially Responsible for 
the Success of American Higher Education

    <bullet> American higher education is a huge success by any 
objective metric and accreditation has played a significant role in 
higher education's success.

    Changing Higher Education Means a Changed Context for Accreditation 
Policy

    <bullet> It is appropriate for policymakers to expect accreditation 
to evolve along with higher education and other external forces.
    <bullet> The higher education system has changed dramatically over 
recent decades and the desired outcomes expected from the system should 
be viewed in that light.

    Accreditation Does Accommodate Institutional Change and Improvement

    <bullet> Accreditation has allowed higher education to develop and 
in reality other forces are more responsible for delays in new program 
offerings.

    New Accreditation Vehicles, New Program Structures, and Their 
Relation to the Title IV Programs

    <bullet> The Federal Government should allow new types of programs 
to receive title IV funding on a pilot or demonstration basis, but 
wholesale changes to accreditation as title IV ``gatekeeper'' are 
unwise at this time. Past instances of program abuse lend credence to 
this view.
    <bullet> It is unclear what accreditation might be replaced with--a 
set of quantitative metrics as some have proposed is unsound policy.

    Accreditation and Transfer of Credit

    <bullet> The lack of acceptance of credit between institutions of 
higher learning remains a significant drag on the system. Accreditation 
should help with this process, and the Federal Government should 
leverage State action.
                                 ______
                                 
    Good morning, Chairman Harkin, Ranking Member Alexander and members 
of the committee. My name is Dr. Dan Phelan and I am president of 
Jackson College in Jackson, MI. Located about 80 miles west of Detroit, 
Jackson College educates more than 8,000 credit and 2,000 non-credit 
students annually in a tri-county service area. Jackson College is 
institutionally accredited by the Higher Learning Commission of the 
North Central Association of Colleges and Schools, the largest of the 
six regional accrediting bodies. I have worked closely with the Higher 
Learning Commission over the years, serving as a Consultant-Evaluator 
for the Commission, with prior tenures on its Institutional Actions 
Committee and a number of other ad hoc committees. Jackson College 
participates in the Commission's alternative accreditation program, 
known as AQIP or the Academic Quality Improvement Project. AQIP is 
based upon the Malcom Baldrige National Quality Award criteria, which 
uses a 7-year review cycle coupled with annual reporting. Jackson 
College also has a number of supplemental program accreditations, 
primarily in the career areas.
    I am pleased to be here today to present my own views as well as 
those of the American Association of Community Colleges (AACC). AACC 
represents the Nation's more than 1,100 community, junior and technical 
colleges.
    Without question, higher education is undergoing remarkable and 
rapid change. This change is born of new developments in technology, 
changes in funding, global competition, and rising expectations for 
accountability from parents, students, employers, and government 
agencies. Accreditation is no exception to this changed reality. 
Expressions of concern about quality in higher education, confusion 
over the accreditation process itself, anxiety about student outcomes, 
and calls for increased transparency have all led to suggestions that 
accreditation is broken. Yet we believe these critics are wrong. Permit 
me a few moments to discuss accreditation, its current context, and 
where it may be headed.
 accreditation's peer review process is partially responsible for the 
                  success of american higher education
    America's colleges and universities, including its vibrant 
community college sector, are among the Nation's greatest assets, 
reflected in a broad range of metrics. College attendance correlates 
strongly with higher income, better health, greater political 
participation, marital stability, community engagement, and many other 
positive outcomes. A college education is valued highly by all major 
segments of the American public, and college graduates show strong 
support for their alma maters. Higher education remains a huge net 
exporter, with international students flocking to America's colleges in 
record numbers after significant post-9/11 declines.
    This great success is due in part to the system of voluntary 
accreditation, which predates the Higher Education Act by more than a 
hundred years. Accreditation has enabled institutions to gauge how they 
are performing institutionally and relative to their peers, helping 
them to benefit from their experience, knowledge, and objectivity, 
which they then offer, in turn, to other institutions through the peer-
review process. It serves as the ``gold standard'' by which 
institutions are evaluated, giving assurances to parents and students 
themselves regarding quality, governance, instruction, fiscal 
soundness, student success, and the like. It gives assurance to peer 
institutions that credit hours earned merit acceptance at transfer 
institutions, and it permits students to receive Federal financial aid.
    Campus officials, faculty, and others in the campus community take 
accreditation extremely seriously and are deeply invested in the 
process, a reality that seems to have gotten lost in the current policy 
debates. It should be remembered that the resources that colleges 
devote to accreditation were also committed in years where there was no 
``gate'' to the title IV programs that accreditors watched. I 
personally view this use of staff and financial resources as a sound 
investment keeping Jackson College focused on the value-added nature of 
our work, and its continuous improvement.
    I firmly believe that, at minimum, regional accreditation generally 
ensures that certain quality standards are met. While relatively few 
institutions lose accreditation, attaining accreditation initially is a 
significant achievement that takes substantial effort, resources, and 
time, and institutions often struggle to retain their accreditation 
when they are reviewed.
    Nevertheless, accreditation alone cannot be expected to cure 
whatever might be said to ail higher education, and it neither can nor 
should foster all the institutional change that our world demands--in a 
word, accreditation cannot simply be equated with institutions. 
Educational policy and related decisions are better made by presidents/
chancellors and local boards of trustees, after obtaining input from 
local advisory groups, faculty experts, employers, and research. The 
market will then determine the relevancy of these institutions in 
meeting local and regional demands. For their part, State and local 
governments must provide funding sufficient to maintain sufficient 
quality standards and programmatic depth.
  changing higher education means a changed context for accreditation 
                                 policy
    More students are going to college than ever before, and more 
students of different ethnic, experiential, economic, and cultural 
backgrounds are enrolling. The extraordinary increase in access to 
college, facilitated in large part by the title IV programs, has 
created this starkly different student body. Currently, only 27 percent 
of all college students are of the traditional 18-22 age, and the 
percentages of low-income and minority students attending college has 
increased substantially. At community colleges, about 60 percent of all 
students are part-time.
    Consequently, when evaluating the overall effectiveness of the 
higher education system and the specific role that accreditation plays 
in it, policymakers should remember that, over the last 40-plus years, 
the scope of higher education has expanded dramatically, particularly 
in the case of community colleges and for-profit institutions. Without, 
in any way, absolving colleges of their obligation to serve all 
students well, these changes in the student body mean that expectations 
for the system need to be rethought. For example, graduation rates that 
were attained during times of relatively limited student access for 
well-prepared, largely affluent students will inevitably be different 
from those when there is much expanded college access.
    American higher education remains highly competitive and 
decentralized. The competition for students, with their differing 
aspirations, has sharpened the quality of colleges and their programs. 
While we do not support the Obama administration's efforts to create a 
Federal ratings system for colleges, the motivation driving this effort 
is on target, in trying to ensure that prospective students receive the 
information they need to select the college or program that suits them 
best. Regrettably, the job is far from complete. We hope that the 
Administration and Congress will collectively ensure that reasonable, 
meaningful, and user-friendly consumer information about community 
colleges and other institutions of higher learning is provided. We do 
not need more information or reporting, to the contrary, we just need 
better information and better coordinated information. Such an outcome 
would also help eliminate scores of Federal and State reporting 
requirements that are burdensome to colleges, especially those with 
limited resources. We also think that institutions and others should 
ensure that students receive adequate counseling in order to make the 
best use of the data that are available. A Federal role in this area 
may be desirable.
    There has been much discussion of the disclosure of accreditation 
reviews. Because the Federal Government relies upon accreditation for 
quality assessment, it is appropriate to seek maximum disclosure. Most 
public colleges disclose all materials related to accreditation 
findings as a matter of course. But we also need to retain a certain 
amount of room for institutions to engage in tough self-scrutiny, and 
be assessed equally rigorously by accreditors, without requiring the 
type of disclosure that would undermine this.
  accreditation does accommodate institutional change and improvement
    Many negative critiques of higher education and community colleges 
focus on an alleged unresponsiveness to change. Accreditation is often 
cited as one of the factors in inhibiting change. Generally speaking, I 
do not believe that this is an accurate depiction.
    At Jackson College, like hundreds of community colleges across the 
country, we are constantly adding, modifying, and discontinuing 
programs, while offering some in different delivery modes and in 
different time sequences for students. For example, we are creating new 
programs to meet the needs of business, as well as those needed by 
students in preparation to transfer. Dramatic revisions of remedial 
education are well underway. In Michigan, we are now adding 4-year 
programs on our campuses. At Jackson College we have implemented 
balanced scorecards to better understand effectiveness, and each month, 
we provide detailed reporting to our Board of Trustees regarding 
critical outcomes of the College's work on Board priorities.
    Speaking for my campus and community colleges generally, 
accreditation has not unduly delayed program changes or improvements. 
It is important that regional accreditors be intentional, thoughtful, 
and consider the full implication of new requests and new approaches to 
instruction, rather than simply rush to approve them and then deal with 
developing problems later. In truth, there are other delays of greater 
concern in the change process for instructional programs. In most 
cases, State approval procedures are more of an obstacle.
    The reality is that it is in our college's best interest to offer 
new programs, provide new instructional methodologies, and incorporate 
newer technology so as to remain competitive and provide for the 
current and emerging needs of our student and employers. Many 
traditional institutions of higher education have demonstrated a clear 
interest in trying to incorporate newer types of programs into their 
credit structures. A good example of the ability of accreditation to 
accommodate change lies in the area of distance education. Twenty years 
ago, online education barely existed. In a study from 2006-7, the U.S. 
Department of Education found that 97 percent of community college 
campuses already offered online education. Other examples include the 
incorporation of Competency-Based Education as yet another means to 
provide a more detailed and credentialed announcement of student 
outcomes.
    Despite its critics, accreditation has changed its processes. This 
is perhaps most dramatically illustrated in the area of learning 
outcomes. All of the regional accrediting agencies now require 
institutions to have defined learning outcomes, and this has had a 
significant impact on campuses. Learning outcomes have not replaced the 
traditional grading system, nor should they, but they are enabling 
administrators to determine, better identify and compare common outputs 
of courses with disparate subject material. In some instances learning 
outcomes have been implemented at the behest of the Federal Government, 
which is a good example of a desirable balance between a stated Federal 
priority and the actions of private accrediting agencies.
new accreditation vehicles, new program structures, and their relation 
                        to the title iv programs
    The perceived shortcomings of institutional accreditation, as 
currently constituted, have led to a variety of proposals to replace or 
augment the present structure with dramatically new forms of 
accreditation, or, more specifically, Federal gatekeeping. We believe 
that radically different models of institutional accreditation for the 
purposes of title IV institutional eligibility carry with them high 
risk, and that Congress should proceed very cautiously in this area. 
Any new approaches will almost certainly be comprised of quantitative 
frameworks that raise the question of whether such metrics could ever 
capture an institution's multi-faceted mission. This is particularly 
the case with community colleges, with their variegated education and 
training programs and community responsibilities. Setting that aside, 
though, the ability of the Federal Government to generate a system that 
could be equitably applied to the diverse set of 7,000 institutions 
participating in the title IV programs is highly doubtful. Community 
colleges are particularly wary of the impact that standards of this 
sort--as well as those that might be applied to the title IV programs 
directly via statutory standards--could have on broad access, which 
remains at the heart of our mission.
    We hasten to add that community colleges do not oppose using 
quantitative metrics in evaluating institutional performance. Indeed, 
AACC and its members have launched a Voluntary Framework of 
Accountability (VFA) that relies upon a series of refined metrics to 
assess institutional performance, including workforce outcomes. AACC 
believes that a national postsecondary education unit record data 
system is necessary and that this system should be coordinated with 
Social Security Administration wage data. But the provision of this 
data is quite different from driving all of higher education, via 
accreditation, to meeting national numerical goals. Colleges will 
respond to the incentives they are given, and a set of Federal targets 
administered through an accreditation system could have a distorting 
effect on the community college mission. Please understand that most 
community college CEOs do not think that performance-based funding is 
inherently a flawed concept; in fact, many of our campus leaders are 
entirely comfortable with State policies of this nature. But those 
State approaches provided for a particular public sector--not a one-
size-fits-all Federal framework.
    At the same time, the emerging new forms of delivering education 
and education design need to be accommodated in the title IV programs. 
During reauthorization, Congress should look to establish pilot, 
demonstration, or similar programs to assess the impact of providing 
Federal support to programs that are not currently eligible for title 
IV aid. (This policy should also be applied to programs at currently 
participating institutions.) For example, a pilot could be created that 
would allow MOOCs or ``badge'' programs to be funded through title IV 
or some similar source. Such programs could be administered by the U.S. 
Department of Education, perhaps subcontracting with other entities. Of 
course, the cost to students of enrolling in these far less expensive 
programs will be reflected in student funding levels, and quality 
assessment will remain an issue. It also should be remembered that many 
of the evolving forms of education are individual courses or program 
``bits,'' and that in the process of taking courses in this fashion 
students may not actually be enrolled at a traditional institution, 
creating delivery issues.
    Institutions also need to be given greater opportunities to ensure 
that prior learning assessment and competency-based learning, which 
date back to the middle of the last century, can be funded through 
title IV. The U.S. Department of Education is making important progress 
in this area.
    In funding new types of learning Congress needs to be ever-watchful 
of the long-term implications of the student support that it provides. 
The example of for-profit colleges is instructive. These colleges are 
inconceivable without title IV funding, commonly brushing up against 
the ceiling imposed by the 90/10 rule. Many parties believe that much 
more rigorous oversight is necessary; few would maintain that for-
profit colleges are under-regulated. Yet advocates of replacing 
accreditation with some other type of title IV ``gate'' generally 
assert that more of a laissez-faire market for higher education, taking 
accreditation out of the triad, would improve the overall quality of 
the system, presumably by disadvantaging current title IV-eligible 
institutions. However, allowing for-profit colleges to act under even 
less regulation is one outcome of this approach as is the potential 
emergence of ``fly by night'' providers associated with the early years 
of for-profit participation in title IV.
    Generally speaking, then, the next HEA reauthorization might most 
profitably function as one of transition, in which the Federal 
Government allows many new program structures to be eligible for 
Federal support that might ultimately lead to a modified triad, without 
radically changing accreditation's gatekeeping role.
                  accreditation and transfer of credit
    Community college students continue to suffer from the 
inappropriate, unnecessary denial of transfer credits to baccalaureate-
granting institutions. This is costly, frustrating, unnecessary 
disillusioning for students, and a huge drain on the effectiveness of 
the higher education system. Research shows that student success is 
significantly enhanced when community college students can transfer all 
their credits. Credit rejection often occurs even between institutions 
accredited by the same agency, sometimes even among two colleges within 
the same university system.
    Still, I believe that institutions must retain the prerogative to 
deny credit--otherwise they lose the ability to vouch for the quality 
and nature of the degrees they confer--but also believe that 
policymakers need to address the transfer of credit issue more 
forcefully than they have to date. The current situation is 
intolerable, despite the progress that has been made in some States and 
the extensive level of programmatic articulation that occurs between 
institutions. Because accreditation is an essential part of signaling 
academic quality between institutions, it needs to be part of the 
solution. In addition, AACC continues to support a more aggressive 
Federal role in encouraging States to act more positively in this area.
                   federal regulation of accreditors
    In the HEA reauthorization, we urge Congress to help reduce some of 
the enormous bureaucratic requirements that have been placed on 
accreditors. Because of its critical role as part of the higher 
education ``triad,'' there is a strong need for the government to 
ensure that accreditation is helping maintain a minimum level of 
academic quality and institutional stability. But this need has been 
implemented in such a way as to make accreditors more focused on simple 
compliance than they should be. Currently, the accreditation statue is 
10 pages long, and there are 28 pages of regulations and 83 pages of 
sub-regulatory guidance. This level of micromanagement of the 
accreditation process serves neither the government nor institutions 
and their students well.
    Thank you for giving me the opportunity to speak with you this 
morning. I would be pleased to respond to any questions that you might 
have.

    The Chairman. Thank you very much, Dr. Phelan. Appreciate 
that.
    And now, Ms. King. Please proceed.

STATEMENT OF LAURA RASAR KING, MPH, MCHES, EXECUTIVE DIRECTOR, 
   COUNCIL ON EDUCATION FOR PUBLIC HEALTH, SILVER SPRING, MD

    Ms. King. Good morning, Mr. Chairman, Mr. Ranking Member, 
and members of the committee.
    Thank you for the opportunity to talk to you today about 
the role of specialized and professional accreditation in 
assuring quality in higher education.
    I am the executive director of the Council on Education for 
Public Health, which is a private, nonprofit accrediting agency 
recognized by the Secretary of Education to accredit schools 
and programs in public health. I am also a board member of the 
Association of Specialized and Professional Accreditors, which 
represents approximately 60 accreditors who set national 
standards for over 80 different disciplines and professions. 
Over half are health professions like medicine, nursing, 
physical therapy and many others like engineering, 
architecture, urban planning, focused directly on the safety 
and protection of the American public.
    Specialized accreditors ensure that students receive a 
quality education consistent with standards to entry into a 
profession, and are critical to delivering quality assurance to 
the customers, clients, and taxpayers those students will 
eventually serve.
    In specialized and professional programs, I believe that 
accreditors do an exceptional job of quality assurance 
requiring a rigorous process of self-evaluation against 
standards adopted by the professions themselves, all of which 
include measures of student learning.
    There is an intricate relationship between the academic and 
practice communities within each profession. Practitioners are 
involved in every step of the accreditation process including 
development of standards and student learning outcomes, and 
participation as members of onsite evaluation teams and 
accrediting bodies. This expert input and review is critical to 
assuring relative training and best practices in today's job 
market.
    Accreditors monitor each program regularly and 
substantively throughout a period of accreditation. Examples 
include annual monitoring of key student outcomes, periodic 
substantive change notifications, interim reporting on 
compliance issues when they arise, and addressing complaints 
from students and others.
    Specialized accreditation is high stakes for accreditors, 
students, and the public due to the nature of professional 
practice. An improperly trained graduate could hurt someone. My 
colleagues and I take quality assurance, for this reason, very 
seriously.
    Correction, evaluation, adjustment, and re-evaluation 
inherent in the accreditation process take time, but it is time 
well spent. It improves the student experience and, ultimately, 
student learning. It is also a mechanism by which professional 
practice standards in every field continue to evolve and 
improve. It is one of the reasons that the United States has 
some of the most well-respected leaders in the world in nearly 
every profession. As with any system, there is always room for 
improvement, and I offer the following for your consideration.
    Information provided to students and the public should be 
useful, current, and presented in a manner that is 
understandable and easily accessible. Often, information on 
college Web sites is not clear about the differentiation 
between institutional and programmatic accreditation, and the 
related impacts on the ability of students to become certified 
to practice.
    The general public does not understand the difference 
between types of accreditation and what it may mean to their 
future career options; and we should not expect them to. This 
is a complicated system the way it is now. It is our 
responsibility as higher education institutions and accreditors 
to decipher this for them.
    All accreditor Web sites are accurate and current. However, 
external Web sites and databases, even from reputable 
organizations and from Government agencies, add to the 
confusion. We recommend that any governmental Web sites simply 
provide links directly to accreditors' Web sites so that 
consumers can access the most recent and accurate information 
about accreditation. And more importantly, an explanation about 
what it means for them in their particular profession.
    Programmatic accreditation should explain how it supports 
institutions and programs that wish to explore new and 
different ways to provide education. All new initiatives are 
verified for quality outcomes to assure that graduates are 
prepared to enter the field of practice with a level of 
competence necessary to protect the public interest.
    In the absence of such evidence, innovations chosen 
primarily based on cost or other criteria not related to 
student outcomes risk long-term negative consequences to 
students and the public.
    Finally, there should be better communication between and 
among institutional and specialized accreditors who work within 
the same institutions. Currently, there is no organized 
mechanism to support information sharing and it is often 
difficult to access some information due to confidentiality, 
policies, and concerns. Regular sharing of information would 
allow accreditors to address problems within an institution 
consistently and quickly.
    I appreciate the opportunity to speak to you today about 
specialized and professional accreditation, and I look forward 
to assisting you, and your staff, as you work toward 
reauthorization. And I would be pleased to answer any questions 
that you may have.
    [The prepared statement of Ms. King follows:]
           Prepared Statement of Laura Rasar King, MPH, MCHES
                                summary
    Programmatic (specialized and professional) accreditation has 
protected the public interest for over 100 years in professions ranging 
from medicine to engineering. Accredited programs ensure students 
receive a high quality education and can demonstrate competence that is 
fundamental to entry-level practice in a field or discipline.
    Programs seeking accreditation undertake a rigorous review process 
including self-evaluation against standards adopted by the profession, 
a comprehensive, onsite review and an ongoing process of continual 
improvement. An accreditation review examines: curriculum; teaching; 
application of new knowledge; ethics/integrity; evaluation and 
assessment of outcomes, including student learning; faculty 
qualifications; student support services, including academic and career 
guidance; information and learning resources; laboratory and training 
facilities; and financial resources, as they impact quality of the 
program. Peer review is fundamental to quality assurance, particularly 
in professional programs in which practitioner experts must assist in 
developing and evaluating standards to ensure that students are trained 
in the most up-to-date practice in the field.
    Continuous monitoring assures quality. Many accreditors require 
annual reports from each program on outcomes such as graduation rates, 
job placement rates and monitoring of student growth. Substantive 
change notices are required whenever there is a change that may affect 
student outcomes. If a concern about non-compliance arises--interim 
reporting is required until the concern is mitigated.
    Accreditation standards are developed to ensure that education is 
relevant and of appropriate content, breadth and depth for entry to the 
specific profession--this is quality assurance. Quality improvement is 
also a critical part of accreditation. Programs must identify how they 
meet the standards, and are also expected to address areas with 
potential for improvement. This is one mechanism by which professional 
practice standards continue to evolve and improve.
    Some areas in accreditation and higher education that could be 
improved:

    <bullet> Students should have easy access to information that is 
useful, current and clear. Information provided by institutions should 
differentiate between institutional and programmatic accreditation and 
the related impact on the ability of students to become licensed or 
certified to practice in their field of study. For accurate 
accreditation information on programs, consumers should be directed to 
accreditors' own Web sites, rather than secondary sources.
    <bullet> Accreditors should explain how they promote innovation. 
There is more than one way to meet accreditation standards, but all new 
initiatives must be verified for quality as determined by the 
profession to ensure that graduates are prepared to enter practice with 
a level of competence necessary to protect the public interest.
    <bullet> Communication between institutional and programmatic 
accreditors should be improved. This communication is important, 
particularly when areas of concern are identified that may affect one 
or the other. Currently, it is very difficult to access some of this 
information due to confidentiality concerns.
                                 ______
                                 
    Mr. Chairman, Mr. Ranking Member and members of the committee, 
thank you for this opportunity to talk to you today about the role of 
specialized and professional accreditors in assuring quality in our 
Nation's higher education institutions. My name is Laura Rasar King and 
I am the executive director of the Council on Education for Public 
Health (CEPH), a private, non-profit and independent accrediting agency 
recognized by the U.S. Secretary of Education to accredit schools and 
programs in public health offering post-secondary education at the 
baccalaureate, master's and doctoral levels. These programs prepare 
graduates for entry into careers in public health occurring in a wide 
variety of settings, including Federal, State and local governments; 
non-profit and charitable organizations; research settings; and other 
industries such as hospitals, insurance companies, pharmaceutical 
companies, and nonhealth-related businesses and worksites. CEPH is a 
relatively small agency, accrediting 153 schools and programs. While 
the agency is 40 years old, it is rapidly growing, with the emergence 
of public health as a field of need and interest, particularly at the 
undergraduate level.
    Before I provide a perspective on how well the current system of 
accreditation is working to deliver quality assurance to students and 
the public, I would like to take this opportunity to put my comments 
into context by addressing specialized and professional accreditation 
in terms of its role, purpose and scope, as well as how what it does 
differs from the role, purpose and scope of regional (institutional) 
accreditation. Throughout my testimony, I will use the terms 
specialized, professional and programmatic accreditation 
interchangeably.
   history and structure of accreditation in postsecondary education
    Specialized and professional accreditation has been protecting the 
public interest for over 100 years starting with Abraham Flexner's work 
to increase standards in American medical education. The nonprofit 
Association of Specialized and Professional Accreditors, ASPA--on whose 
board of directors I sit--has approximately 60 accreditor members who 
set national educational standards for 80 different specialized 
disciplines and professions. Thirty-four of these agencies are 
recognized by the U.S. Secretary of Education and 16 of those serve as 
both programmatic and institutional accreditors, providing access to 
title IV student loan funds. Professions range from medicine to project 
management and physical therapy to construction. Health fields are 
represented by over 35 members, and several others focus directly on 
the safety and protection of the American public, for example, 
engineering, architecture, and urban planning. These programs ensure 
students receive a quality education, consistent with standards for 
entry or advanced practice in a field or discipline. Through an 
emphasis on standards-based self-evaluation and peer-review, 
accreditation plays an important role in continuous quality improvement 
in higher education.
role and scope of specialized accreditors vs. institutional accreditors
    Unlike institutional accreditation, which applies to a college or 
university as a whole, wherein academic and organizational structures 
and systems are reviewed to determine how the parts of the institution 
contribute to achievement of institutional objectives, programmatic 
accreditation conducts an in-depth assessment of specialized or 
professional programs that may be available through a college, a 
university or an independent institution. Specialized and professional 
accreditation closely examines and evaluates measures of learning or 
competence that are fundamental to competent practice in a discipline 
or profession.
                  process of specialized accreditation
    Any specialized or professional program of study seeking 
accreditation undertakes a rigorous review process. It starts with 
self-evaluation against standards adopted by the profession and 
includes a comprehensive, onsite review and an ongoing process of 
continual improvement.
    An important factor in the accreditation process is peer-review by 
experts in the field of study. A team selected by the accrediting 
agency visits the institution or program to determine first-hand if the 
applicant meets established standards. Evaluators are typically 
volunteers who are a mix of practitioners and academics with expert 
knowledge in the specialized area. While specific guidelines and 
standards vary by agency, most accreditors conduct reviews and assure 
quality in the following areas: professional or specialized program 
curriculum; teaching and development and/or application of new 
knowledge; ethics/integrity; mission, planning, evaluation and 
assessment of outcomes, including student learning; faculty 
qualifications; student support services, including academic and career 
guidance; library, information and learning resources; physical, 
laboratory and training facilities (as they apply); and financial 
resources and program organization and administration to the extent 
that it impacts other critical areas.
current status of specialized accreditation and how well it is able to 
          deliver quality assurance to students and the public
    In the vast majority of institutions and especially in specialized 
and professional programs, I believe that accreditors do an exceptional 
job of quality assurance. Because it is my area of expertise, I will 
focus my remarks primarily on programmatic accreditation in terms of 
its constant feedback loop with practitioners in the field, the peer-
review process, the process of continuous monitoring, and the inherent 
process of quality improvement.
      constant input from the field of practice to assure quality
    One of the hallmarks of specialized and professional accreditation 
is the intricate relationship between the academic and practice 
community within the profession. This is critical in ensuring that 
graduates of professional programs are competent in current practice. 
Practitioners are involved in every step of the accreditation process. 
Each accreditor accomplishes this involvement differently, but by way 
of example, one of our accreditation standards requires that each 
program consider input from the local practice community on appropriate 
and current programmatic competencies. We also require that our 
programs regularly collect and consider input from both alumni of the 
program as well as employers on how well graduates of the program are 
able to meet the needs of practice. While our programs do this 
directly, as public health is an unlicensed profession, other 
professions coordinate detailed job task analyses--a practice-based and 
scientific determination of the tasks, skills and areas of knowledge 
needed for a job--originating from their certifying organizations. Most 
States have statutes requiring completion of accredited programs in 
order for individuals to advance to licensure and certification for 
entry to a profession. Programs must prepare graduates who are 
competent and capable of meeting State requirements, such as passing 
licensure examinations. Practitioners also review and comment on any 
proposed changes to the accreditation standards, participate in every 
onsite visit as peer reviewers and serve on the agency's board of 
directors with equal input into accreditation decisions. Specialized 
accreditation is fortunate that it is so focused in nature--
identification of needed professional skills and evaluation of student 
learning is straightforward.
    peer-review is fundamental to quality assurance in professional 
                                programs
    I would also like to emphasize the strength of--and the importance 
of--the peer-review process which has taken some negative criticism 
over the past few years in relation to accreditation. For professional 
accreditation, peer-review is necessary to ensure that professionals 
are appropriately trained consistent with the best practices of the 
discipline or profession--hence the role of professional judgment is 
fundamental to the enterprise. Keep in mind that peers are not only 
academic peers but also practitioner peers. Imagine you are going to 
have a root canal, get a prescription filled or even have your dream 
house built--I'm sure you would much prefer that your dentist, 
pharmacist and builder has been trained in a system where other 
dentists, pharmacists and construction experts have contributed to the 
development and assessment of quality standards for those educational 
programs. The process of peer-review contains a rigorous system of 
checks and balances. The process ensures objectivity and avoids 
conflicts of interest between accreditors and the institutions and 
programs under review. Specifically:

    <bullet> There are formal written policies and procedures which 
eliminate bias Among peer reviewers, decisionmakers, staff and academic 
institutions and programs.
    <bullet> Accreditation standards are developed in a collaborative 
and inclusive process with input from educators, practitioners of 
specific disciplines, members of the public, students, employers and 
State regulators, among others.
    <bullet> Peer reviewers undergo extensive training in accreditation 
standards and procedures, including any that are specific to their 
professional discipline. Briefings and advanced training are expected, 
especially for those conducting onsite visits.
    <bullet> Most peer reviewers are volunteers who are dedicated to 
higher education or their specific field. Reviewers spend significant 
personal time reading and evaluating extensive documentation, visiting 
institutions and then collaborating to produce a report.
               continuous monitoring in quality assurance
    As you noted in your letter of invitation, Mr. Chairman, 
accreditation is obligated to serve two primary communities of 
interest: students, and the customers, clients and taxpayers that they 
will one day serve. To understand how well accreditation is able to 
assure quality in higher education, it is important to understand how 
accreditors ensure that quality standards are and continue to be met. I 
described earlier in my testimony how standards are developed to ensure 
that education provided by programs is relevant and of appropriate 
content, breadth and depth for the specific profession. I also 
described the peer-review process in evaluating whether those standards 
are met. In most cases, this comprehensive process occurs every 5 to 10 
years--in my agency it occurs every 7 years. However, accreditors are 
in regular contact with each accredited program throughout that period. 
For example, my agency requires annual reports from each program on 
critical outcomes such as graduation rates, job placement rates and 
monitoring of rapid student growth. Substantive change notices are 
submitted and considered whenever there is a change that may affect 
student outcomes. Whenever there is a concern about non-compliance--
from any source--interim reporting is required until the concern is 
mitigated. Complaints are considered and addressed when they arise. 
This means that most accreditors have multiple contacts with each 
accredited program on an annual basis. Monitoring is regular and it is 
substantive. Accreditation is high stakes for institutions because of 
the funding link. Specialized accreditation is also high stakes for 
accreditors, especially in the health professions because an improperly 
trained graduate could hurt someone. For this reason, my colleagues and 
I take quality assurance very seriously. I believe that specialized 
accreditors assure competence for entry to practice exceptionally well.
                   quality improvement and innovation
    From my perspective, assurance of entry-level standards is not the 
only job of an accreditor. Quality improvement is also a critical part 
of the process. A criticism I often hear about accreditation is that it 
takes ``too long'' to get through the process. The process can seem 
long. However, much of that time is spent in the self-evaluation 
component of the process. Accreditors expect not only that institutions 
and programs self-identify to what extent they meet the standards, but 
also to identify areas with problems or needing improvement--and they 
are expected to address those. This constant evaluation, adjustment and 
re-evaluation takes time, but, I believe it is time well spent. In 
addition, beyond entry-level standards set by each accreditor, most 
accreditors also have an expectation for programs to identify areas for 
special focus and improvement. This is one mechanism by which 
professional practice standards continue to evolve and improve. This is 
one of the reasons that the United States has some of the most well-
respected leaders in the world in nearly every profession. This is also 
the space in which innovation can flourish.
    Innovation is also an area in which accreditors receive criticism. 
We have been accused of ``stifling innovation'' or ``rigorously 
enforcing standards that were current 30 years ago.'' Even in my own 
profession, there is urban legend about what we would ``never allow'' 
and it always surprises me. We expect programs to continue to improve 
even if they are meeting the standards at the basic level. However, 
there are many ways to meet the standards--and accreditors are open to 
differing approaches programs may present.
    In fact, CEPH has a long history of working with our programs to 
accommodate innovation as it relates to quality education. We 
accredited our first distance-based program in 1991--now 20 percent of 
our accredited schools and programs offer the Master of Public Health 
(MPH) degree in a fully online format. We accredited our first 
collaborative program--a joint program sponsored by more than one 
university in 1986--and now we accredit seven multi-university 
collaboratives, with more on the way. These are only some examples from 
my own experience. I know that my colleagues in specialized 
accreditation in other fields could give you other examples.
                         areas for improvement
    As in any system, there is always room for improvement. It's 
important to note that quality assurance and performance improvement 
are key principles and values of programmatic accreditors. Just as they 
expect these activities of the programs they accredit, they have 
similar expectations for themselves. ASPA members endorse a code of 
good practice that addresses promotion of the development of 
educational quality, integrity and professionalism in accreditation 
activities, and respect and promotion of institutional independence and 
academic decisionmaking. Our members contribute and look to the 
association to provide opportunities and education for professional 
development and improvement. Several accreditors undergo ``voluntary'' 
recognition. That being said, there are several areas in accreditation 
and higher education that could be improved.
   students and families should be empowered as consumers in higher 
               education with access to good information
    Information provided to students and the public should be useful, 
current and thoughtfully presented in a manner that is understandable 
and easily accessible. Programmatic accreditors typically require 
programs to provide public information about their accreditation 
status. Often, information provided by institutions--whether 
intentional or not--is not clear about the differentiation between 
institutional and programmatic accreditation and the related impact on 
the ability of students to become licensed or certified to practice in 
their field of study. The general public does not understand the 
difference between the types of accreditation and what it may mean to 
future career options. Accreditation requirements for clarity, full 
disclosure and accessibility in this area would enable students to make 
better decisions regarding their education choices. As well, 
information about how former students have performed in the program 
should be available. Information on college Web sites should be up-to-
date, provided in plain language and not buried.
    The responsibility for accuracy and currency of available 
information lies not only with the accreditors. Identification of a 
quality program is more difficult than one would think because of the 
volume of information available. There are multiple Web sites and 
databases out there from even reputable organizations that do not get 
it right. For example, despite their best efforts, the USDE 
accreditation database is inaccurate, outdated and not in a format that 
gives the best information for the public. I fear that the newly 
proposed rating system will be yet another source of information which 
leads to confusion among prospective students. Accreditor Web sites are 
required to be up-to-date in order to meet recognition guidelines. We 
recommend that the Department abandon its effort to track accredited 
programs in its database and provide links directly to accreditors' Web 
sites, so that consumers can access the most recent and accurate 
accreditation information, along with an explanation about what it 
means for them.
    accreditors can do a better job of explaining how they promote 
                               innovation
    Programmatic accreditation supports institutions and programs that 
wish to explore new and different ways to provide education. In my 
experience, because accreditation is not well understood by even those 
who lead in academic settings, it is often used as an excuse not to 
innovate. I have been called numerous times by faculty members who want 
to try something new at their institutions and have been told by their 
colleagues that it ``isn't allowed'' by the accreditor. This is not 
true for my agency. What is true, is that all new initiatives, whether 
they are considered innovative or not, must be verified for quality as 
determined by my profession to ensure that graduates are prepared to 
enter the field of practice with a level of competence necessary to 
protect the public interest. These quality indicators may be vastly 
different depending on the profession, but in all cases students must 
achieve successful results in knowledge and skill development in a 
specific field. In the absence of such evidence, innovations chosen 
primarily based on cost or other criteria not related to the 
development of student competence in the field, risk long-term negative 
consequences for the various disciplines and professions, particularly 
in terms of their responsibility to serve the public.
    there should be better communication between institutional and 
     specialized accreditors who work within the same institutions
    Unless a specialized accreditor is also an institutional accreditor 
working with a single purpose institution, programs exist within the 
context of a larger institution. Specialized accreditors require that 
the institutions in which they work be institutionally accredited to 
ensure that the overall context of the program is reputable and 
sustainable. Often, different specialized accreditors work side by side 
within a university when a number of programs are housed in the same 
organizational units. It is important that the institutional 
accreditors and the specialized accreditors as well as specialized 
accreditors in related fields, share information, particularly when 
areas of concern are identified that may affect one or the other. 
Currently, it is very difficult to access some of this information due 
to confidentiality concerns. A mechanism for information sharing 
currently does not exist, and if it did, it could lead to the ability 
to more quickly address problems within an institution before they 
become insurmountable.
    I appreciate the opportunity to speak to you today about 
specialized and professional accreditation and look forward to 
assisting you and your staff as you develop ideas for reauthorization. 
I would be pleased to answer any questions you may have.

    The Chairman. Thank you all, very much, for very poignant, 
very concise statements and for your longer statements, which I 
had time to go over yesterday and last night, since we were in 
until about 2 a.m. this morning. I appreciate that very much.
    We will begin a round of 5-minute questions here.
    I just want to start off by sort of a general kind of 
approach. You have all touched on the issue of innovation. We 
hear a lot about that here, new innovations in schools.
    I just asked my staff for data that we have heard once 
before, that traditional students--maybe the kind that we were 
at one time--18 to 22 years of age, attending college full-time 
and living in residence, now constitute considerably less than 
one-third of all undergraduates. That is amazing. That is a 
huge shift in just the last few years.
    More and more types of innovation are coming along. We had 
a whole series of hearings on this committee on the for-profit 
schools and their tremendous growth in the last 20 years. Now, 
we hear about MOOC's, and iTunes U., and TED.com, and I mean 
who knows what else is going on out there.
    There was a story in ``The New York Times'' the other day, 
I am sure maybe you saw it, about these new innovations. Not 
about their success, but about their failure, and how many are 
failing students.
    Now I hear about new innovations where institutions, or let 
me put it this way, concepts of new institutions of higher 
learning should be able to get access to Federal student aid. 
Their students should be able to get access to Federal aid even 
though they have not been accredited because they are not even 
established yet.
    Why should they be established for 10 years or 12 years 
before they get accreditation? That blocks innovation, I am 
told. I do not know what the answer to that is. So we are kind 
of caught, at least I am, betwixt and between. We do not want 
to stifle innovation. I do not want to be one of those that 
say, ``The way I went to college and the way I learned was the 
best, and we have got to keep that no matter what.'' Sometimes 
things change. People learn differently. My kids, when they 
were growing up, learned a lot differently than how I learned.
    We want innovation, but we want the quality assurances. We 
want to protect taxpayers' dollars; we do not want it wasted. 
We do not want it to go to just build new edifices or to do 
maybe things that are not geared toward student learning, or to 
go to profits for Wall Street firms and things like that. We 
have to be good stewards of taxpayers' dollars and try to make 
sure students get quality learning, but we do not want to 
stifle innovation. How do we do that dance? I am not certain, 
and that is why we are looking to you and accreditors to try to 
give us some way forward on this.
    I think Senator Alexander is absolutely right. We just keep 
reauthorizing these bills and every time we do, we get more 
regulations and more paperwork, but I am not certain that is 
the answer either.
    I have taken a long time to say that, but how do we try to 
balance innovation and new concepts with quality assurance and 
being, again, protective of taxpayers' dollars? That is just a 
general question, but I think it weaves through everything that 
you have all talked about, whether it is community colleges or 
whatever.
    Dr. Levine, let us start with you. Just a brief response, 
my time is almost running out.
    Mr. Levine. It is the toughest question there is right now.
    When the United States moved from an agrarian to an 
industrial society, our existing colleges did not work anymore. 
Connecticut looked to Yale and said, ``Your program is 
irrelevant. We are not going to give you any more money.'' So 
we reinvented higher education.
    We created universities which were radical institutions. 
These guys were going to prepare people for professions, do 
specialized study, advanced study. We created technical 
institutes like MIT to prepare people for an industrial 
society. We created land grant colleges that would straddle 
both worlds. And we created junior colleges so we could move 
this stuff locally.
    We are in the same place right now, which is to say that 
the current system of higher education was built for an 
industrial era, we are moving into an information economy, and 
we are going to reinvent higher education. We are going to see 
kinds of institutions that are universal access, that are low 
cost, that are digital, and that focus on outcomes rather than 
hold degrees, and perhaps focus on competencies.
    So the real question for us now is: what do we do 
immediately given that it is going to be influx and it is not 
going to sort itself out for decades? And I think we can do it, 
pick some of the early trends and say, ``Yes, we are going to 
focus on those now.''
    We know we are moving from process to outcomes, so let us 
start to focus on outcomes in a very serious kind of way. We 
have some of that data now. We can get some of that data in the 
future. We know we are going to do digital, which is going to 
cross boundaries from regional accrediting associations. Let us 
focus on that one right now.
    We know we are going to see new providers. Let us start 
looking at those new providers in ways we have not looked at 
them before as candidates for accreditation.
    The Chairman. I have a lot of followup questions. Anybody 
else? Yes, doctor. Go ahead, Dr. Wolff wanted to respond. I am 
sorry to take so much time.
    Mr. Wolff. Thank you. Well, I would agree. It is a major 
question. I have tried to address it in my longer written 
testimony.
    But first I want to say that I think we need to acknowledge 
that existing accreditation is trying to respond to innovation. 
Having worked with Western Governors University and its 
establishment, and more recently with Minerva which has 
received a lot of publicity, and University Now and others, and 
being in Silicon Valley, I talk a lot with the providers of 
MOOC's.
    First we need data about what is working and what is not. 
Second, we need to acknowledge it takes a very long time to 
become accredited. Federal law requires that we cannot accredit 
until there is at least one class of graduates. Is that 
appropriate? One could argue it is; one could also say we need 
a quicker design build process. Here, I believe, transparency 
is important, experimental approaches are important, and 
outcomes-based approaches are really important.
    Competency-based education is something very new where 
direct assessment is being involved. It is not so much new, but 
the idea going off the credit-hour. We need to monitor these 
and accreditors have been responding to them, but working with 
people in Silicon Valley, I can tell you that they view that 
accreditation takes too long. It is too costly and puts them in 
a catch-22. They can operate without accreditation, even 
without financial aid, but recognition of the credit. Or, if 
they have to wait 4 to 6 years, they may not survive.
    So we do need some processes and this is where I propose 
that we try some experimental or pilot processes either within 
existing accreditors or as a separate one using experimental 
sites authority to experiment with what a new approach would be 
or several new approaches.
    The Chairman. Dr. Phelan.
    Mr. Phelan. Mr. Chairman, I guess I first would say that I 
think it is unfair to saddle accreditors with being the 
barriers to innovation. I do not think that is true. In fact, I 
would say at my own institution some of our very policies, some 
of the procedures and history, the culture of our organization 
can be a barrier as much as the State Department of Education, 
for example.
    I have not experienced a blockade to innovation on my 
campus. Indeed, we are flipping our classroom from an 
instructional point of view, putting more burden on the 
students and collaborative responsibility of our faculty, for 
example.
    We have implemented quality standards around the Malcolm 
Baldrige National Quality Award principles in support by our 
local accrediting body. We have added housing.
    Are there some areas they can improve upon? Certainly. When 
we added another campus on the north side of town, we had to 
get the accreditors involved. Did that make sense to me? Not so 
much. But I think we also need to find some kind of common 
ground in the middle there where we can say, ``We need to have 
a thoughtful and deliberative approach to what the new 
innovation is.''
    Imagine where we would be right now if we went willy nilly 
out and approved MOOC's for accreditation, that these were 
accredited programs. It takes thoughtful and deliberative time 
for us to evaluate the quality and the efficacy. We have that 
responsibility for the students and for the taxpayers, and I 
think we need to retain it.
    Can we find some common ground? Yes. And I think my right 
honorable colleague here is exactly right. We can start with 
some pilots like Southern New Hampshire has been and Western 
Governors with competency-based education, for example.
    I think there is some common ground, but I do not think it 
is fair to burden the accreditors entirely with this innovation 
limitation.
    The Chairman. Ms. King.
    Ms. King. Yes, I agree with my colleagues.
    I would also go back, even in my own experience as an 
accreditor, there is a lot of urban legend out there about what 
accreditation will not allow you to do. I get those phone calls 
frequently from universities if some faculty member has a great 
idea for a way to innovate, and they are told by other faculty 
members, ``Oh, the accreditor would never allow that.'' Well, 
they never checked in. We are happy to work with them on new 
and different approaches and ways to handle things that they 
want to try. We do not call them official pilot programs, but 
we certainly work through them. We work with the universities.
    Our main concern is about the outcome. Will students be 
able to learn and be competent at the end of the program?
    The Chairman. But you are talking about just a certain 
course of study, are you not now?
    Ms. King. Yes, that is correct.
    The Chairman. Right. Thank you all very much. Dr. Wolff, I 
am sorry.
    Mr. Wolff. If I may, just one brief comment. Let me try to 
categorize.
    There are a lot of changes occurring. Some are within 
institutions, regional accreditors and other accreditors deal 
with those. Others are new providers through affiliation 
agreements. These are controlled by Federal regulations, 
substantive change, and the like; Minerva working with KGI, 
Embanet and 2U, and with USC and Northeastern, and the like.
    We need to be able to look at what are those innovations? 
How do we promote those kinds? And third are whole new 
institutions with lots of new ideas. I think we need to break 
down where is innovation occurring, and where does the systems 
do good work, and where there is a lot of new work occurring 
often is outside of existing traditional institutions. We need 
to figure out a process to deal with them.
    The Chairman. Thank you all very much. I really went over 
my time.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    I am sitting here and I have come to think how remarkable 
it is how our higher education system has emerged. I mean, 
basically, we have a self-regulated marketplace of 6,000 or 
7,000 different reasonably autonomous institutions into which 
the Federal Government pours about $135 billion a year and what 
we as trustees of all that money--I mean, it does not have to 
be that way.
    We could operate colleges and universities the way China 
operates its education system or the way we operate our public 
schools, which is the same. We could tell everybody where to go 
to college, and we could tell the colleges what to teach, and 
we could regulate them from Washington. That is what we could 
have done. But really because of the accident of the G.I. bill 
and the accident, really, of when somebody thought, ``Well, we 
are spending a lot of money. We have got to make sure it is 
going to appropriate institutions.'' Instead of setting up an 
agency in the Department of Education in Washington to do that, 
we said, ``We will rely on you. We will rely on the accreditors 
to do that.''
    That is something, I think, we need to keep. And I think 
you are more likely to be able to respond to the innovation 
than Members of the Senate, or Members of the House, or a group 
people in the Department of Education in Washington.
    However, help us sort out what accreditors are supposed to 
do. What the Federal Government is supposed to do. And what 
accreditors are doing now, that you do not need to be doing.
    For example, the way my staff counts it up, there are about 
93 different boxes that we require a regional accrediting 
agency to check as it goes through. Things like, ``Have you 
written plans to maintain and upgrade facilities, equipment, 
and supplies?'' Whether the budget allocates resources 
appropriately, whether the facilities meet safety and fire 
codes, and whether they have adequate administrative staff.
    When I was president of the University of Tennessee, they 
came and made me build a new law building, when I had rather 
spent the money somewhere else. Or when I was Education 
Secretary, the middle States' accrediting agency was telling 
some church college it had to put more women on its board of 
directors, diversity was its big issue.
    I mean, are there not some things that the Federal 
Government requires accreditors to do that do not really have 
anything to do with quality? And that if you could focus more 
on quality and less on these extraneous things that you might 
be able to do a better job? And then, how do you draw the line 
between how we, in the Federal Government, make sure that the 
money we spend, that the institutions are in compliance with 
the financial stuff? Keep that over here and let you focus, if 
you are an accreditor, on quality. Not just on how to get the 
quality, but more and more on outcomes, whether there is 
quality.
    Help us draw those lines.
    Mr. Wolff. Let me identify three areas that would be 
helpful to be released from obligations.
    First, is to look at the 10 areas in which standards are 
mandated, and whether all of those continue to be relevant.
    Second, the substantive change procedures require even 
those institutions that have well established themselves to go 
through laborious processes of prior review and approval. And 
there is not a way, I could go into greater detail, and even if 
you give them a blanket approval, then you have to go visit 
other sites at the backbend.
    But this is where risk-based accreditation should be 
adapted so that when an institution has established itself, the 
requirement that every standard be reviewed and compliance be 
established is, for many institutions, not useful. We really 
need to focus, put the emphasis on different syllables, which 
are really: what is good learning? And how do we engage faculty 
in that? How do we improve retention and graduation? This is 
where we need to be freed up where institutions that are well-
established have addressed themselves.
    Third, the law requires anytime there is a change in 
modality that we need to go through an approval process. Well, 
online education----
    Senator Alexander. What do you mean? What does that mean?
    Mr. Wolff. That is a good question. That is what the law 
says. The way we have interpreted it is online education. If 
you move from classroom to online, it requires prior review. We 
do not require a lecture at a seminar. But again, some 
institutions have well-established their ability to move into 
new modalities, and online education is not so new.
    Senator Alexander. You mean, if Duke University decides to 
teach environmental management online partly rather than just 
in a classroom, that would require a different accreditation?
    Mr. Wolff. It would require, my understanding, I cannot 
speak for SACS, but I would believe that SACS would require 
Duke to go through a substantive change process and have that 
program reviewed before it is shifted to an online environment.
    So the recognition process itself--I have said this to the 
NACIQI, the National Advisory Committee on Institutional 
Quality and Integrity--as a leader of an organization that 
tried to shift our focus to learning and to outcomes, the whole 
recognition process was on policy, paper, and process. Not a 
word was ever expressed, not anything was filed with respect to 
what we were doing with retention or outcomes.
    The whole process, in my view, there ought to at least be 
an alternative process where you could go forward and focus on 
outcomes rather than inputs.
    Senator Alexander. Mr. Chairman, my time is up, but I 
wonder if I could ask each of the witnesses--it would be 
helpful to me and I imagine to all of us, and you have done 
some of it in your statement--if after the hearing, you could 
answer the question I just asked by specifically identifying 
the things that we require accreditors to do that are not as 
useful today and that we could drop so that you could focus 
more attention on quality.
    [The information referred to was not available at time of 
press.]
    The Chairman. As you can hear, the bells, we are now into 
the second part of the first vote. There are two votes. So that 
means we have 5 minutes left, is that right, on this first 
vote? So I think we are going to have to go pretty soon, but 
this is so important.
    We are coming back. We will go over and do this vote. I ask 
people to vote early on the next vote, and we will come right 
back, because I intend to continue this at least until 12:30, 
maybe 12:45 if there are other Senators that might show up.
    I ask you all then. We will take a break now, and we will 
be back, hopefully, in about 20 minutes. Thank you.
    [Recess.]
    The Chairman. The committee will resume its hearing.
    I thank you all for your indulgence and for waiting here as 
we did these votes.
    Now, I am pleased to recognize Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman.
    I read in one of your testimonies last night that 
universities and colleges put a lot of effort into getting 
accreditation, but that it is sort of hard to get unaccredited.
    How many colleges lost their accreditation, say, 2010-11? 
Anybody on the panel.
    Mr. Wolff. I really do not know the number. What I would 
say is that this is why I am such an advocate of transparency.
    I think that the framing of the question is the way 
accreditors look at it: how many institutions have we turned 
around through sanctions through ongoing monitoring? We have 
very rigorous annual and more periodic financial monitoring.
    So I would say that one way of looking at the question is 
probably about 5 to 10 percent of institutions are on some form 
of sanction. Over 50 percent are monitored outside of the 
comprehensive review process.
    In my tenure at WASC, over 30 years in which I have worked 
at WASC, probably about five institutions, five or six, lost 
their accreditation. But I would say it is about 5 times that 
or maybe 10 times that they were placed on probation or show 
cause where they actually had to make dramatic change.
    Senator Franken. OK. Do you all not know this because of 
lack of transparency?
    Mr. Wolff. No. I just do not know for all the other regions 
how many, at least, speaking for regional accreditation or 
national accreditation, how many over a particular timeframe 
were terminated.
    Senator Franken. OK.
    Mr. Levine. I would add to that point to say you can 
probably count the number on both hands. And the reason for not 
knowing it or not being able to give it is exactly what was 
described.
    There are probably hundreds of accrediting associations in 
this country. Given that, one does not know what each one is 
doing.
    Senator Franken. I was just wondering because we have heard 
testimony on some schools and you were talking about the 
entrepreneurial school. I would assume that you mean, by that, 
the for-profit schools.
    We have heard testimony in this committee of some pretty 
egregious situations where someone will take a course in 
something, some technical thing, for example, I think reading 
sonograms, and then they cannot get hired anywhere because no 
one recognizes their course. We were wondering why have they 
not lost their accreditation, this institution?
    I just think it is interesting that none of the four 
witnesses could answer that question, how many colleges have 
lost their accreditation in the last couple of years.
    The Chairman. If the Senator would yield, then, I will give 
him more time.
    Senator Franken. Yes.
    The Chairman. I asked my staff. CRS has the answer on 
regional accrediting agencies. Was this just last year? In 2010 
and 2011, 4 lost. Now here are the other ones, national faith-
related, 3; national accrediting agencies, 13 nationwide.
    Senator Franken. OK.
    The Chairman. 2010-11. So from the regional, only four.
    Senator Franken. I see. OK. Well, I will move on because I 
want to get this. Dr. Phelan.
    Mr. Phelan. I think there is a distinction that needs to be 
drawn between institutional accreditation by the regionals and 
program accreditation.
    Senator Franken. Yes, OK. I understand that.
    Speaking of programs, I will try to transition here. Dr. 
Phelan, I see that you are president of a community and 
technical college.
    Mr. Phelan. I am.
    Senator Franken. Yes. One thing that I have noticed in my 
State, and this is true all around the country, is we have this 
thing called the skills gap. The skills gap is about one-third 
to one-half of manufacturers in my State have jobs that are 
available to people, that they cannot fill. This is in a time 
of continued high unemployment. If these people were skilled 
up, they could get jobs. We could fill these jobs. That would 
help the manufacturers, in many cases manufacturers, in some 
cases in healthcare, in some cases it is in IT. And I know you 
are president of a community technical college.
    I have seen a lot of productive partnerships between 
businesses and the community and technical colleges where they 
offer maybe a design course by the businesses, say, a precision 
machine tooling or something, CNC work. It is great. It works 
terrifically.
    I was wondering, what is the process by which those 
programs get accredited and are there any barriers to that, 
that I need to look at? Because I have a bill called the 
Community College to Career Fund Act to incentivize those 
partnerships between businesses and the community and technical 
colleges to train people up for these jobs.
    Mr. Phelan. Thank you for the question, Senator.
    What I would say is that there are those kinds of 
partnerships taking place right now. For example, Jackson 
College is providing leadership with the State Government to 
implement a program called the liaison program that allows us 
from the community college to go to the high schools and help 
these young men and women understand what these middle careers 
look like. They are not their mom and dad's old program. These 
are highly technical positions, highly compensated in the 
middle skills' area.
    So part of the challenge we face is getting young men and 
women to understand that these are different jobs fundamentally 
and require a higher level of education in getting the work 
out.
    Senator Franken. Yes.
    Mr. Phelan. In deference to your second question you asked, 
you are talking about specific program accreditation.
    At Jackson College, for example, we are working with NLNAC, 
the National League for Nursing Accrediting Commission, for 
supplemental accreditation, program accreditation for our 
nursing program. We are accredited as an institution from the 
Higher Learning Commission, institutional accreditation. We 
have gone after NLNAC for nursing. That takes a period of time.
    Some of that information they have asked for is duplicative 
of that which we provide to the regional commission, but it 
takes a fair amount of time for us to demonstrate the 
competence, the skills, the resources that we have available, 
and deployed for that supplemental accreditation. It has taken 
us a couple of years to move through that process. We hope to 
finish it up here by next spring.
    Senator Franken. I think that is all well and proper. It is 
just that we have, really, a crisis in this country. I think 
there are about 3 million jobs out there that could be filled 
this instant if people had the skills, and I just want to make 
sure that there are not unnecessary barriers to doing those 
kinds of partnerships.
    Mr. Levine. There are actually ways to speed it up, I 
think. If these were done as non-degree programs, simply scaled 
programs being offered through continuing education, the only 
real cost would be hiring faculty and getting the equipment 
that is the latest, up-to-date equipment used in that industry.
    Senator Franken. OK. Thank you. I may pursue that with you 
further out of the hearing setting.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chairman. Thank 
you all for being here.
    I think this is a fascinating time to be in your line of 
work, just as interesting to be on this committee as the 
industry and the practice of higher education transforms before 
our eyes.
    We had a panel on innovation maybe about a month back and 
equally stunning to hear about all of the different innovations 
that are happening. You all have addressed how accreditation 
keeps up with innovation today.
    But I was really struck by the fact that on that panel, as 
proud as all of the administrators and policymakers were about 
innovations, on the entirety of the opening remarks on that 
panel, there was no talk about how those innovations were going 
to directly relate to affordability. Nobody talked about how 
the innovation was going to have an immediate impact on the 
price of college. And it also strikes me that we have not 
talked yet, really, about the issue of affordability here.
    I want to go back to a question that Senator Alexander 
raised. He asks the best questions. But one that he asked that 
did not get addressed by the panel was how you separate out the 
roles and responsibilities of accreditors versus the roles and 
responsibilities of the Federal Government and State 
regulators.
    It strikes me that there is not anybody today that is 
really forcing college administrators to wake up every single 
day and think about affordability. You talk about measuring 
outcomes, well, outcomes can be graduation rates, they can be 
loan default rates, they can be job placement rates. But all of 
those connect back in some way to the price that students are 
paying for their degree. They need a certificate that gets them 
a job, but they also need to get through at a price at which 
that job and that salary allows them to repay the money that 
they may have taken out.
    So I guess I want to reframe Senator Alexander's question 
through the lens of affordability. What role does accreditation 
play today in paying attention to the price that students pay 
for the degree? Should they, as we take a look at new methods 
of accreditation, place a greater emphasis on affordability? 
Or, is that just something that the Federal Government through 
the allocation of title IV dollars or State Governments through 
their regulatory processes should be paying attention to and it 
should not be really a question that accreditors are focused 
on?
    Mr. Wolff.
    Mr. Wolff. Let me try to take a stab at that.
    First, we do not view ourselves as being able to set or to 
comment on whether a tuition is too high or too low. And for 
public institutions, it has often been a response to State 
budget cuts, and we have no control over that.
    There have been times where I will say that our Commission, 
and I believe other commissions, have expressed concern that 
cuts have gone too deep, and have really had an impact on 
quality.
    That being said, there are three areas in which I think I 
could, at least, speak. One is there are new institutions that 
are trying to address the cost and affordability issue by lower 
tuition or no tuition at all--University of the People and 
others--that are seeking accreditation and we have to be open 
to very different models that they will use to address or to 
come. University Now, for example, has actually gone off the 
title IV grid and is trying to bring the cost down to a very 
affordable level. We need to be open to those experiments 
within institutions.
    Second, competency-based education has the potential of 
really moving. So a student only needs to take what he or she 
needs. And we have developed procedures to do that, and the 
Department has offered experimental sites looking into that. I 
think that is a potential.
    The third issue, and I have thought a lot about this is: 
are the recommendations we make going to add to costs or are 
they going to add effectiveness? There is a difference, you can 
require. I think we need to be, again, more sensitive of where 
our recommendations have a consequentiality around improved 
effectiveness, not just increased costs that do not lead to 
improved student completion or student learning outcomes.
    Mr. Phelan. Senator, I could let you know that I do wake up 
every morning thinking about affordability, particularly for 
the kind of unwritten mandate for community colleges where the 
national tuition average for us is about $3,200. I am mindful 
of that.
    I am mindful about the fact that it has an impact on our 
students. I am mindful of that in terms of the default rate of 
how students are handling this back at their own homes, and the 
impact upon our institution.
    I do think that we have to find ways, however, to find 
those programs and services that matter, that lead to the 
outcomes and figure out a way how we can scale those up.
    I am mindful as a community college that we have more 
people coming to us with a greater level of diversity with 
higher expectations for outcomes and wanting that at a much 
lower cost. I am mindful of that every day and trying to figure 
out how I thread that needle is incredibly difficult for us to 
do.
    Senator Murphy. Dr. Levine.
    Mr. Levine. Cost is one of those issues in which there are 
no heroes.
    What I would say here is that, yes, part of it is 
increasing regulation. Part of it is reduced support for higher 
education at the State level. However, higher education is also 
responsible for the rises.
    It is one of the only industries I know in which 
competition actually increases cost. It is also an industry in 
which we engage in cost-plus pricing. It is also an industry in 
which we grow by addition not by substitution, so we keep what 
we have and we keep adding to it. All of those are cost 
drivers.
    Who should do what? It seems to me in talking to both 
legislators and Governors that people are becoming increasingly 
disenchanted with the cost of higher education. And if 
institutions do not act, it is quite likely we will see 
regulation occur in Washington and other places.
    I think it behooves accreditation to take on a larger role 
in this area as a self-policing responsibility rather than 
letting it occur outside.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman, Ranking Member 
Alexander. I apologize for my late arrival. We are trying to 
cover two hearings.
    I had some questions I wanted to ask about accreditation. 
Accreditors serve an incredibly important role in the higher 
education system, and they are the primary gatekeeper for 
Federal aid. At a time when student debt is $1.2 trillion and 
Federal funding is scarce, it is essential to ensure that our 
taxpayer dollars are going to schools that are good stewards of 
this investment.
    There seem to be some conflicts of interest that are 
inherent in the accreditation system, and I think it is 
important to talk about how those conflicts affect outcomes of 
the accreditors' evaluations.
    Accrediting agencies get paid by member colleges. To be 
federally approved accrediting agencies, the accreditors must 
demonstrate wide acceptance of the policies and procedures in 
the higher education community.
    So my question is: Does that mean if an accreditor is tough 
on its colleges that the colleges can seek to unseat an 
accreditor just by claiming that the practices are not widely 
accepted? Anyone?
    Dr. Wolff.
    Mr. Wolff. It is a very good question. And I know that we, 
in the accrediting community, are challenged by the fact that 
it is a peer-review process and our financial support does come 
from our institutions. We are quite aware of that fact. I will 
say as one who has worked with accreditation, I have never seen 
my Commission, or really in observing other commissions, shirk 
their responsibility to serve the public interest.
    In my view, this is where transparency plays a really 
important role. You need to see what we do. You need to see our 
team reports so that you would have confidence and in the 
actions of our Commission that a perceived conflict of 
interest, or potential one, is not real.
    Senator Warren. I appreciate the point, but it seems to me 
that if accreditors are doing the main thing we need them to 
do, which is to crackdown on poor performing schools, that 
there is a problem here because then you have at least some 
schools who are going to complain bitterly about the 
accreditation process. And so I raise it because it worries me.
    The conflicts of interest we saw with the credit rating 
agencies in the financial services industry created some real 
problems for us: unreliable assessments of financial products 
made those conflict-ridden credit agencies a key factor in 
bringing down our whole economic system. And in higher 
education, unreliable assessments of quality put both students 
and taxpayers at-risk particularly if they encourage students 
to go into debt or to go to colleges that are not providing a 
meaningful education.
    I think we have to take a very close look at the role the 
Federal Government plays in exacerbating the conflict problem 
with the accrediting agencies.
    I want to ask another question about accreditation. I see 
that the process is very complex, that accreditors look at a 
number of factors and weigh them against one or another to make 
an overall determination about institutional quality.
    I can imagine from the inside assessing quality seems 
pretty complicated. But I have to say from the outside, it does 
not look like it should be quite so hard. And I say that 
because the goal of accreditation, as I understand it, is not 
to distinguish the fiftieth best college from the tenth best 
college. The goal is to identify the schools that are of really 
low quality. And it seems to me that with just a few pieces of 
data--high student loan default rates, extremely low graduation 
rates, poor retention of students with Pell grants--that it is 
possible to identify a school that is providing a poor quality 
education or that is wasting the Government's resources.
    I realize that may not tell us everything about what is 
going on at a college, but it gives the key information that 
this is a very risky place for a student to try to get an 
education.
    So what I want to understand is why accreditors are not 
drawing a line in the sand so that it becomes immediately clear 
when a college is not serving its students well.
    Ms. King. Thank you for the question, Senator. That is also 
a concern for me as well.
    I come from the specialized realm, so our programs are the 
programs that are accrediting the folks that become your 
doctors and your physical therapists, your engineers, people 
who could actually hurt someone if they are not doing their job 
appropriately and their education is not appropriate.
    We do draw a line in the sand. We can identify poor 
performing programs. And, in fact, those programs never, in my 
experience, make it through our process to the point of 
accreditation.
    Senator Warren. So if the Chairman will bear with me for 
just another minute on this, if I can push this. Let me ask the 
question specifically about undergraduate education.
    Should there be a bright-line beyond which we say a school 
should not be accredited? If there is a graduation rate that is 
so low that that should mean, bright-line, the school is not a 
school that should be accredited. If you do not have a 
graduation rate of 50 percent, or 25 percent, or 10 percent, or 
5 percent, should there be a bright-line on this?
    Dr. Levine, what do you think?
    Mr. Levine. Bright-lines are tough.
    The one thing I want to say is of this panel, I am the only 
one that does not have a dog in this hunt so that I am not from 
an accrediting agency. I am no longer a college president. What 
I am is somebody who studies higher education, and what I would 
say about it is if we have a 50 percent as a bright-line, we 
have just closed every community college in the United States, 
I think, or pretty close.
    Part of what we are really looking at is: why is this 
attrition happening? Some people do not go there for degrees.
    Senator Warren. Fair enough and there may be ways you have 
to step some of this in, but is there no number, 25 percent, 5 
percent?
    Mr. Levine. There are lots of numbers.
    Senator Warren. One percent? If you are not graduating 
somebody, why is this called a degree-granting institution?
    Mr. Phelan.
    Mr. Phelan. Senator, just a few comments. I think what you 
are speaking to is an expectation of increasing transparency, 
and I fully support that.
    However, to your bright-line question, the question begs 
another, and that is: what are the unique circumstances in 
which this institution exists? Are you going to have the same 
bright-line for a community college in inner city Chicago over 
rural Kansas, for example?
    It strikes me that as we come to some metric of what these 
should be, there has to be some understanding of the 
demographic, the SES, the social economic condition of that 
environment, and then make some judgments.
    Even more importantly, I think, which is embedded in your 
question is we need accreditation to do a better job of being 
transparent, and in ways that the average person can 
understand, not depths, and piles, and reports but clear, 
understandable text about the quality of this institution. Let 
the parent and the student then decide, and they will vote by 
their feet. And ultimately, that school will close or lose its 
accreditation because they do not have students.
    Senator Warren. Well, I will stop here because the Chair 
has been very patient in letting me go over time, but I will 
say on this, the focus, the important focus at the low quality 
schools. We have got to give the information to our students 
and to the Federal Government so that we are not pouring more 
resources into a place that is not providing a top quality 
education because those are resources that could have gone to 
schools that are willing to provide that education.
    We should not be loading our students down with debt that 
they are going to be obligated to deal with for a lifetime when 
they did not get an education in return for that. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warren, for your 
contribution. I appreciate that.
    Going back to Senator Franken's question about 
accreditation--I had my staff look it up. Regional accrediting 
agencies terminated or removed 4. National removed or 
terminated 13. Programmatic accrediting removed or terminated 
74. So I look at the 4 and the 13, and that is out of over 
7,000 institutions. Well, that either means 6,996 are doing a 
great job or maybe our standards are too low. I do not know. 
Which is it? I ask that question rhetorically.
    Then that begs another question. The more I have gotten 
into accreditation and how it is done, we rely on peer 
reviewers to do the site visits. And as I have learned, these 
peer reviewers get paid for doing that. They go from one 
college to another. They do not get paid for doing that?
    Mr. Levine. No, it is like jury duty.
    The Chairman. I saw some that did.
    Mr. Wolff. No, they are not paid. The Higher Learning 
Commission does give a small stipend to the SAC's. The Higher 
Learning Commission is $150 a day, well below. All of ours are 
volunteers; most are all volunteer with only expenses covered.
    The Chairman. OK.
    Ms. King. Yes, and I am also unaware of any paid, other 
than travel expenses, obviously.
    The Chairman. I think that is probably it.
    But my larger point is that many of these peer reviewers go 
from the college that they are teaching in and they go to 
review another college. As someone described to me, it is kind 
of an incestuous relationship. These professors all know one 
another,

          ``You scratch my back, I will scratch yours. I am not 
        going to give you a bad report, and when you come 
        around, you do not give me a bad report.''

    Now people will say, ``Well, that does not happen. That 
does not happen in higher education.'' Well, I am not so 
certain. If it does not happen overtly; it happens just, well, 
you know, ``We will take care of that.'' Now, there is training 
for peer reviewers. I am not certain what kind of training that 
is. We will get into that, perhaps.
    But what I wanted to get into more than anything is what 
the accreditors, the regional accreditors are doing in terms of 
sending a message out to the institutions that they are 
accrediting? The Higher Learning Commission of North Central 
Association, the Nation's largest regional accreditor, updated 
its required criteria to merit or reaffirm accreditation this 
year and includes the following statement,

          ``The institution's educational responsibilities take 
        primacy over other purposes such as generating 
        financial returns for investors, contributing to a 
        related or parent organization, or supporting external 
        interests.''

    Sylvia Manning, who testified before this committee, who is 
the president of the Higher Learning Commission, stated they 
felt it was important to make a statement that education is a 
public good.
    I guess I might direct this question more to Dr. Wolff, but 
then, we will go onto others, giving your previous work at the 
Western Association of Schools and Colleges, and your knowledge 
of the accreditation system.
    Do you think that other regional accreditors should adopt a 
similar type of criteria?
    Mr. Wolff. Yes, Senator, I can tell you that in the WASC 
standards, we exactly say the same thing. We have added 
contribution to the public interest as our standard, into our 
standard on mission. We saw that that statement was in the 
Higher Learning Commission.
    I do know that all of the other regional associations do 
look at the issue, whether they are as explicit as HLC has 
been. This is an issue that we are educational accreditors. We 
are not there to protect shareholders or the like, and all of 
us operate with the principle that the primary purpose for our 
accreditation is to assure that the educational program is 
dominant or is the primary focus of the institution.
    In a specific case, for example, I can tell you, we will 
not or do not say that a profit level is excessive or a surplus 
level for a nonprofit institution. But we do focus on: are 
adequate resources being placed on the educational program? And 
we have had no hesitation in saying to either a nonprofit or a 
for-profit institution, ``inadequate support,'' particularly to 
address retention and learning outcomes assessment in two key 
areas.
    The Chairman. Dr. Levine.
    Mr. Levine. I think there is enormous variation among the 
regionals.
    I think it is not uncommon to see nontraditional 
institutions shop around for the best possible deal, the 
easiest accreditation. I think that low-end is sometimes too 
low. Institutions get the benefit of the doubt because they 
become so high stakes. If their accreditation is taken away, 
they have just lost Federal financial aid so that they are more 
likely to be given double secret probation than they are to 
lose their accreditation.
    At the high-end, the most selective institutions in the 
country, it is an expensive, time-consuming, cookie-cutter 
approach that tends to provide very little information because 
you know you are going to get accredited. You just have to go 
through this procedure.
    The Chairman. I do not know if the other two wanted to 
comment on that. My point is what Sylvia Manning has said that 
the institutions' educational responsibilities take primacy 
over other purposes such as generating financial returns, 
contributing to related or parent organizations, or supporting 
external interests.
    Is that a good focus even for community colleges?
    Mr. Phelan. Absolutely, I agree, Senator. Being in the 
Higher Learning Commission regional area, I am fully supportive 
of that.
    In fact, as an AQIP institution, the first criterion for me 
under AQIP is helping students learn; that is our primary 
focus. Everything else is a distraction. To the degree we do 
that or do that poorly determines our fate.
    So to the degree that we engage in this process of peers 
with a professional ethic to do a good, quality job regardless 
of the institution that they visit, and provide a substantial 
report that the president, the chief academic officer of the 
board of trustees use to define direction for that institution, 
vis-a-vis our strategic plan, is how we use this information. 
We take it very seriously and it helps to advance our 
institution.
    Can we improve some of that effort? Could we provide 
additional training for the consultant evaluators? Sure. Would 
that help? Could we create a certification process around some 
particular standard so that we make sure that every consultant 
evaluator showing up is bringing their best A-game to the 
table. Sure, that would address the question that you raised 
earlier.
    So we can make some improvements, but I would say, make no 
mistake at least for my perspective being in the Higher 
Learning Commission and as a president, I and my faculty and 
board of trustees take it very seriously, and we take those as 
actionable items.
    Coming back, the consultant evaluators really have two 
roles. One is to ensure compliance and focus on mission and 
achievement of the criterion. But the second is they are also 
consultants. They offer advice and counsel, ``Have you heard 
about this? Have you seen this? We did this at our institution. 
You might want to think about it.'' And we benefit from that 
just as much in advancing the institution as well as ensuring 
compliance of what we are doing.
    Ms. King. And very quickly, Mr. Chairman, I know you want 
to move on, but from the specialized perspective, peer-review 
means something slightly different than it may mean in 
institutional, and that is not my area of expertise.
    But our peers are not only educator peers, but on every 
site visit team and on our decisionmaking bodies, we have 
practitioners. So if it is dentistry, they have practicing 
dentists or in public health, we have practicing people in 
public health and they are also peer reviewers. They are not 
scratching anybody's back except for the primacy of what we 
take into account as protection of the health and safety of the 
public, protection of the public interest and that is primary 
in every council discussion that I have ever been a part of. 
And I would guess that my colleagues in specialized accrediting 
would tell you the same thing.
    The Chairman. Thank you all very much.
    Senator Alexander.
    Senator Alexander. Ms. King, do you think it would be 
appropriate for a specialized accrediting agency to come around 
and say, ``Your building is old. We think you need to spend $40 
million building a new building or we are not going to accredit 
you?''
    Ms. King. That is a great question.
    Senator Alexander. I know it is. Why do you not give me an 
answer?
    Ms. King. I am not exactly sure.
    Senator Alexander. What does that have to do----
    Ms. King. I do not know, actually. Let me----
    Senator Alexander. Yes. Well, that is what happened at the 
University of Tennessee. I was president, and the legal 
accreditors came around and said, ``If you do not build a new 
law school building, we will not accredit you.'' I about threw 
them out of the office.
    Ms. King. I do not----
    Senator Alexander. But we had to do it.
    Ms. King [continuing]. Blame you.
    Senator Alexander. What?
    Ms. King. I do not blame you.
    Senator Alexander. Well, is that not an example?
    The point I am trying to get to, it seems to me that 
accreditation is not a perfect fit for what the Federal 
Government needs done. I mean, what the Federal Government 
needs done is to know whether we are throwing our money away, 
right? Then what accreditation is supposed to do is, if I am 
right and please correct me, it is really a self-regulating 
device. If you are at Jackson, Dr. Phelan, what you want your 
peer reviewers to tell you is how can I be better, right?
    Now what we want them to tell us is, are you a fraudulent 
institution and we should not be allowing students to spend 
taxpayers' money at your place. And those are not necessarily 
the same inquiries. Is that not right?
    Mr. Phelan. I would say so. I think there are two parts to 
your question. The first, I would say, I do think your 
experience in Tennessee was an overreach, from my perspective.
    Senator Alexander. Yes.
    Mr. Phelan. I think those decisions are best made by your 
local board of trustees by evaluating your financial situation.
    Senator Alexander. Yes.
    Mr. Phelan. The realm of the accreditor, in your particular 
case, is understanding the quality of the learning environment. 
Is the place too noisy? Is it too hot?
    Senator Alexander. Do your accreditors come in and tell 
you, examine the size of your administrative staff?
    Mr. Phelan. Yes.
    Senator Alexander. Whether your buildings are new or old, 
do they look at that?
    Mr. Phelan. Yes, they do, but that would be an overreach--
--
    Senator Alexander. Do you think they should?
    Mr. Phelan. That would be an overreach for them to 
proscribe what that needs to be. What their focus is, is what 
is the quality of education taking place in your institution? 
Is there a formative procedure by which that education is 
developed, curriculum, outcomes, those are developed and making 
sure that is in place. Saying you have too many provosts or 
vice provosts should not be their domain.
    Senator Alexander. Yes.
    Mr. Phelan. So to the point there, I think it is important 
to say that there is a role and responsibility for accreditors 
to have some say in understanding what is the quality of the 
learning environment? What is the academic approval process?
    Ultimately, they also need to be on the hook to be able to 
say, ``You are not meeting these minimal standards in order to 
have the outcomes that your students should have.''
    Senator Alexander. Let me be a little blunt about it. I do 
not want to put words into Senator Harkin's mouth, but we have 
a lot of institutions. There is a good deal of concern on the 
committee that some of the nontraditional institutions are 
institutions where taxpayers' money is being wasted. And so 
Senator Harkin had a whole series of hearings a couple of years 
ago on for-profit institutions. He was concerned about those. 
My own preference is to look at all of the institutions, 6,000 
or 7,000 and treat them the same way.
    I think it is a fair point to say is there a way 
accrediting agencies can help assure the Federal Government 
that there is at least some minimum below which--there is a 
group of institutions that should not be accredited where 
students with taxpayers' dollars should not go? I mean, that is 
much less of an examination, it would seem to me than this 
larger examination of: how do we improve all of the departments 
at Yale University? Which as, you say Dr. Levine, is going to 
get accredited.
    The whole purpose of it is to help the university itself 
improve itself, right? It is not to find out whether it is a 
waste of taxpayers' money for someone with a Pell grant to go 
there.
    How do we separate those two things or is it possible to 
do?
    Mr. Levine. Sure, it is possible to do.
    By the way, you brought back some horrible memories. I was 
a college president for 12 years' of visits. I knew specialized 
accrediting was sort of like bringing in the lobby. The 
question was how many new positions they were going to ask for. 
The question was how many new fellowships they were going to 
ask for. It was just a question of how much this visit was 
going to cost me in terms of add-ons to what I was doing, so I 
never loved specialized accrediting visits.
    In terms of your question, the reality is, yes. Accrediting 
does much more than what the Federal Government is looking for 
and there are three alternatives here. One is turn to somebody 
else, create something else. The other one is, you have a 
choice of which organizations you recognize, and there are some 
that you may not want to recognize that are currently 
recognized now.
    Senator Alexander. You mean that the Secretary should 
recognize.
    Mr. Levine. Yes.
    Senator Alexander. I was pretty far along in my time as 
Secretary before I realized that I could basically accredit the 
accreditors.
    Mr. Levine. That is it and there is probably some stuff 
that ought to be done there. And finally, I think it is useful 
at this point. Everything is in flux in terms of where higher 
education is going. These are wonderful times to sit down with 
the accrediting associations and figure out what constitutes 
the appropriate floor for now. What should it look like? And it 
sure should not look like what it used to.
    Senator Alexander. The floor? What do you mean?
    Mr. Levine. Yes. The basic, ``Does this institution pass 
muster? Is it adequate?''
    Senator Alexander. So it is not unreasonable to say there 
should be at least a basic level.
    Mr. Levine. Absolutely.
    Senator Alexander. And then above that, it is all about 
shooting for the stars for that institution.
    Mr. Levine. Yes, sure. And you are buying a piece of the 
package.
    Senator Alexander. Yes. And my instinct is, I think I hear 
Dr. Wolff saying this especially, maybe all of you, that as far 
as innovation goes my instinct--and tell me if I am wrong--is 
that one way that we could allow accreditors to have more time 
to spend on figuring out what to do about all this innovation 
that we hope is going to be happening, is to relieve them from 
requirements of doing things that are less useful. Is that 
correct?
    Mr. Wolff. Senator, first, very good question, and as a 
former law professor having taught in a building that was new 
as a result of a recommendation of the agency, I can appreciate 
the concern.
    Senator Alexander. You might have been on that visiting 
accreditation committee or that peer-review committee, yes.
    [Laughter.]
    Mr. Wolff. I do mean to say that speaking for regional 
accreditation, there has been, I think, a very significant and 
substantive shift from inputs and resources that you describe, 
to outcomes and a focus on outcomes that the president has 
described.
    An example is we used to pay attention to how many volumes 
staff in a library. We do not even look at that anymore. We 
want to look at how are students accessing information, online 
or other ways, and information literacy? This is a shift that 
is quite dramatic, and it is one that is a culture shift as 
much as a reframing of standards. It is underway and needs to 
be moved farther along.
    Second, I would also say that I share the concerns that you 
all are expressing, and I think my colleagues do, about how do 
we describe what floor is, given the diversity of institutions? 
We do need to, and this is why I have talked about, on the one 
hand, more attention to public accountability and more risk-
based accreditation to deal with both the top and the bottom 
within a system.
    I also believe there ought to be triggers that call for 
more monitoring, but not immediate action or not a specific 
action. Let me cite an example.
    My commission, 2 years ago, adopted a requirement that all 
institutions would report on retention and graduation for all 
students, transfer students, non-full-time freshmen, the data 
that is beyond IPEDS, do a 3-year trend analysis, disaggregate 
the data, and find at least three benchmark institutions that 
would be, one of which at least, would be stretched.
    We have now run that in a pilot, where they are discovering 
the challenge of, No. 1, getting good data; No. 2, defining 
what is an appropriate level; and No. 3, getting good 
comparative data. But we are staying on the course and trying 
to work this out in a responsible way.
    But I do think we need to be more transparent and more 
focused on issues like debt, completion, demonstration of 
clarity of the outcomes, and the quality of the representations 
that institutions are making, what I would call part of that 
public accountability agenda, while we are also looking at more 
holistic aspects like governance and other things.
    I do believe that we are much more attentive to the floor. 
We are sanctioning more. Our standards are being higher, if you 
will. We are paying a lot more attention to entrepreneurial 
institutions and the front door issues of recruitment, 
financial aid, and the like.
    I think transparency, a lot of it is not public, it is not 
known, so I would urge that we have the conversation that Dr. 
Levine is talking about: what more can we do? How can we do it?
    I am not sure more regulation is the answer. Actually, I 
would say more regulation is not the answer, but more 
collaboration with the Department where it is seeing problems 
because it has investigatory authority. It is collecting data 
more holistically. It is doing the calculated financial ratio 
indicators, and we do work with them when they notify us of 
that, but I would hope we could improve the collaboration 
between us.
    Senator Alexander. I would just say to Chairman Harkin, my 
experience is that the peer-review system is a pretty good way 
to do it. Academic people are independent, let us say, and when 
they arrive on your campus to examine you, they are not 
necessarily going to give you a pass. They are skeptics by 
profession, really, I mean most of them are skeptics by 
profession and they examine things that way, and most of them 
do not get paid very much. I mean, they get their expenses paid 
generally, is that not right, for their visits.
    It is sort of a professional duty, from my experience, and 
they come in with a pretty aggressive way usually, and take 
some delight in catching somebody on another campus not doing 
something quite as well as they do on their own campus. So it 
is more likely, actually, to be more adversarial than it is too 
congenial. Now, that is awfully anecdotal.
    But, I do not know what the alternative is. The only other 
thing to do is just hire a bunch of regulators, and put them in 
the Department of Education, and travel around and see 7,000 
institutions, and that would be a disaster. They would not have 
a clue about what they were seeing.
    What you have to do is you have people who, at least, are 
familiar with all these various facets of higher education so 
they can contest and examine each other. So it would be kind of 
like the University of Tennessee coming to examine Iowa State. 
We would probably think we were doing it better than you did, 
and you would know that would be wrong because you have the 
best land grant university in the United States. There would be 
a lot of competition about that.
    The Chairman. I just do not know. I have not really studied 
how peer reviewers get to be peer reviewers, and how long do--I 
assume there is some kind of training that goes on? And are 
they trained well? And if you become a peer reviewer, do you 
stay there and do that year after year after year after year 
for a long period of time? I do not know the answers to those 
questions.
    Mr. Phelan.
    Mr. Phelan. I can speak to that, Senator. As a consultant 
evaluator myself, there is a responsibility that you have 
before you can consider that, in fact, you have been involved 
in accreditation process, that you have been attending 
regularly the annual meetings of accreditation. There are 
specific training programs. The associations also look to make 
sure you are getting continuing professional development.
    I would also let you know that at the conclusion of the 
site visit, there is an inter-rater kind of reliability test 
that goes on. So the chair of the committee evaluates each to 
the members of the team. The team, in turn, rates back the 
chair about the quality of their work. The president of the 
institution also has the right and responsibility to lead back 
to the higher education accrediting body and say, ``We had a 
good experience. We had a bad experience. The individuals were 
not prepared. They were prepared.'' So there is a system of 
accountability and checks and balances on that.
    Can it be improved? I think so. I think that maybe the 
certification process, as I mentioned previously, could help 
define that a little more tightly, but there are current 
systems in place that preclude difficulty in that area.
    The Chairman. Well, since we are talking about the internal 
operations of these agencies. Dr. Levine, the testimony you 
provided and I read, on the end of it, you talked about, ``The 
work recently done to reform teacher education,'' and you 
mentioned that in your comments also, ``accreditation by the 
Council for the Accreditation of Educator Preparation,'' and 
you used that as an example of how they reform themselves from 
within.
    First, what was the impetus for that change? And could 
regional accreditors also kind of engage in that kind of self-
reflection and self-improvement?
    Mr. Levine. There is no reason why they could not.
    I must say one other thing, and using them as an example. I 
have been really, really critical of teacher education 
accreditation before they made the changes. And one of the 
reasons they did make the changes was everybody was really 
critical of teacher education accreditation. And when the two 
agencies merged, the idea was this was pretty much their last 
chance to get it right or they were risking being replaced by 
other kinds of organizations. So the incredible pressure really 
did cause them to make major changes that were very desirable. 
Strong leadership was also very important in making this 
happen.
    Could other associations do this? Absolutely. They 
absolutely could.
    The Chairman. Oh, yes. Dr. Wolff.
    Mr. Wolff. Just very quickly. When we undertook our last 
review, we actually had nine people prepare papers including 
Dr. Levine, Kevin Carey, a whole range of people about where 
accreditation needed to go to the future.
    We also did another series of papers on how accreditation 
needs to change to respond to innovation, nine papers. They are 
all on our Web site. And we took a lot of those ideas, worked 
with the commission, did surveys.
    Every accrediting region is required both, by their own 
practice and by law, to update their standards periodically. 
But I think that we are at a time, as I am trying to indicate, 
we are at time where we need to have multiple approaches. We 
need to be able to demonstrate much more flexibility and much 
more sensitivity to the issues that you are raising.
    I think that we are up to the task and are prepared to 
engage in that kind of dialog with you.
    The Chairman. I just want to be fair about one thing, going 
back to Senator Franken's comment, and I mentioned that there 
were 4 schools that were terminated in regional accreditation 
and 13 schools in national, but that is sort of the extreme.
    There are a lot of other instances. There is 
``accreditation continued following comprehensive review which 
required followups'', ``notices or warnings'', ``probation''; 
``show cause'', I do not know what that means, and ``other'', 
365 instances of ``other'' for regional accreditation, 257 for 
national accreditation.
    When you total up out of that, then there is a lot more 
that is going on other than just termination or removal, and I 
am not certain I know exactly what all those are and what those 
entail. So my previous question was sort of, ``Well, is the 
floor too low?'' Well, I do not know. I guess it would be, ``Is 
the floor too low for termination or removal, but how about 
these other stages? Do they have appropriate floors?'' For 
example, for whatever it means here when there is a notice or a 
warning. I do not know what that means, but there are 
substantially more of those than obviously termination of 
accreditation.
    In your own estimation, should there be other things, other 
than the list I have here, which I think is an exhaustive list 
from the CRS, Congressional Research Service. Are there other 
things that should be looked at or should be, what am I trying 
to think of, a stick, as someone said earlier, rather than just 
these? Are there other things that are not being looked at that 
should be looked at?
    Mr. Wolff. First, let me say the things that you cite are 
what we would call sanctions, and all sanctions are public. So 
the first thing is to say that they are public on our Web site. 
They are not necessarily, unless it is show cause or something, 
extremely serious. Are the institutions required to identify 
their status with respect to regional accreditation?
    Second, Federal law limits the period of time in which an 
institution can demonstrate its compliance when it is out of 
compliance with a standard to 2 years. We all adhere to that 2-
year rule and though it is not staged warning probation show 
cause over a decade, it is now very serious and taken very 
seriously by institutions.
    And whether it is a warning, probation, or show of cause, 
which are designed to communicate levels of seriousness, in our 
experience, that followup monitoring leads to dramatic 
institutional change, change in leadership, dramatic efforts, 
which is why I think we could cite dozens of turnaround stories 
where there has been success as a result of all of those 
categories.
    The Chairman. One thing that leaps out at me, I do not mean 
to go on too long here, but ``show cause'', which I do not even 
know what that means, under the regional agencies there were 6 
instances, but under the national agencies there were 580. All 
the rest of them are sort of aligned, but that one seems to be 
way out of whack. Why the difference in those two?
    Mr. Wolff. The one thing I would say is that terms do not 
mean the same things even across these six or seven regional 
accrediting commissions.
    So WASC uses show cause to mean, ``You are going to lose 
your accreditation in 1 year or less.'' There is another agency 
that uses show cause to say, ``You have to show cause why you 
were not put on probation.''
    So the first response is with respect to the regional 
community, there is a conversation going on about how do we 
make our labels consistent so that they do not confuse?
    With respect to the nationals, I cannot answer. I do not 
know how show cause is used in their context.
    Ms. King. And there is a similar effort at the specialized 
level because all of those items that you mentioned do mean 
different things for different agencies, although they are all 
part of sanctioned status of some sort. And so there are among 
specialized accreditors, an effort to try to make those more 
consistent, to be more transparent to the public.
    The Chairman. Should they be standardized, these termin-
ologies, across accrediting agencies?
    Mr. Phelan. From my perspective, I think that would be 
helpful particularly as we are in a time where students are 
matriculating all around the use of the technology, Internet 
courses, taking classes from different institutions.
    As parents and students themselves are looking for the 
transparency documentation about how this institution has 
performed, having a common set of definitions and a common set 
of meaning would be very, very helpful to parents and students 
themselves in understanding the viability of that particular 
institution.
    So I would say yes, Senator. I would support that.
    The Chairman. Could the agencies themselves sort of 
collaborate without us?
    Mr. Phelan. Yes, and I think you heard from my colleague 
here to the right that, in fact, they are having those 
conversations now.
    The Chairman. OK. Yes.
    Mr. Levine. Senator, I think the process that we are 
talking about could be accelerated and there are probably three 
steps that might be taken.
    One is we could spur innovation among accrediting 
organizations if we used established programs like i3 to 
Investing In Innovation, to provide some competition to spur 
modernization on the part of accreditors, raise standards on 
the part of accreditors, and encourage mergers on the part of 
accreditors to create common standards.
    The second piece would be, I think pressure works very 
effectively.
    The Chairman. Excuse me. I am sorry.
    Mr. Levine. No, it is perfectly fine.
    The Chairman. I have one last question I wanted to ask. I 
recently attended one of the national hearing sessions by the 
Department of Education on this so-called ratings system that 
the Administration has proposed. Boy, did I get an earful 
regarding things that I had not thought about before.
    One student, I felt, was exceptionally good. I know Under 
Secretary Kanter was doing these sessions and it was at the 
University of Northern Iowa. One student described how these 
rating systems could actually lead to a death spiral. In other 
words, if you get a low rating, then you are cutback on your 
Pell grants and you are cutback on your student loans. That 
means they really cannot improve themselves. So the next time 
around, they are down a rung lower. That means they get cut 
even more. And so everything just keeps going down into a death 
spiral.
    That really impacted my thinking on this. And then a lot of 
other things on how these ratings systems--so you rate a 
school, a college, but how about within that college there is 
one, let us say, professional or one program that is really 
good and maybe the only one in the area. And students cannot 
afford to go to another State to go to that program, but that 
part of that school is really good, but the overall school gets 
a low rating. And so the kids that want to go to public health 
school at this university, they get their Pell grants cut or 
their student loans curtailed even though that school might be 
the only place they can go.
    I got an earful on that and I am really looking at it. Just 
speaking for myself, I am really looking at this whole proposed 
rating system. I hope I did not prejudice your thinking on 
this, but I am just wondering, have you looked at this proposed 
type of rating system and how it would be connected with 
Federal financial aid?
    Have you looked at these? Do you have any views on this? 
Sort of aside from what we are here about, but I am just 
curious. You are all involved in ratings and accreditation. I 
just wondered if you have any thoughts on this?
    Mr. Levine. I have heard two presentations so far on the 
rating system, and at the moment, it is inchoate.
    What I think is really needed is, we need consumer 
information for students, not a ranking system. Will it be 
terribly desirable? Tell me about the attrition rate. What are 
my chances of graduating if I enroll in this institution? Tell 
me what my student loans are going to look like when I graduate 
from this institution. Tell me about my placement rates when I 
graduate from this institution. That would be terribly, 
terribly helpful consumer information that might do the same 
job.
    The Chairman. Anybody else have any thoughts?
    Mr. Phelan.
    Mr. Phelan. I agree with Dr. Levine. I would also say that 
I agree with your analysis of the implications for the 
institutions relative to Federal financial aid.
    Senator, the distance between rating and ranking is about 
that wide. And I am concerned from community colleges that we 
are actually opposed to that because there is a uniqueness and 
a diversity of our institutions which are not captured in 
simply numerical ratings. And we have to consider the changing 
dynamic of students.
    For example, am I going to be held more accountable because 
I am an institution where 80 percent of my incoming students 
fail to prepare for a college level class, so they have to take 
developmental education? As opposed to another institution 
which is in a very vibrant, suburban, well-heeled financial 
area? So we have to be very, very careful.
    We are in opposition to that for the reasons I have stated.
    The Chairman. Yes, Dr. Wolff. This will be the last round 
and then we have got to go. But Dr. Wolff, your thoughts.
    Mr. Wolff. I would just concur and add much work needs to 
be done on it and including accuracy of data.
    One of the things we have learned is how difficult it is to 
get accurate data and the high stakes consequentiality of 
calling it ``ratings,'' is serious and then performance 
funding, if you will, with respect to that.
    I think what is critically important is that we move toward 
a more personalized form of education that technology provides. 
It is not just, ``How well will I do with this institution or 
what are my chances?'' It is, ``With respect to which program 
given my GPA and my preparation?'' And over-generalization can 
be misleading in any direction possible for students. It is not 
just the availability of information; it is being able to 
contextualize and make that information meaningful.
    I think we all need to be more accountable, to be more 
helpful with respect to this, and including accreditors. I 
think we all have a role to play. But higher education is far 
too important, and frankly, it is not for everyone at age 18. 
And many students only will be able to go in their home 
communities, and that is where most students go.
    The Chairman. Right.
    Mr. Wolff. We do not want to damage that, but what we want 
to do is to make it better and more appropriate for those 
students.
    So I would just say the concern is real. We all have a role 
to play to address it, but we want to do no harm.
    The Chairman. Thank you. Ms. King, did you have one last 
thought?
    Ms. King. Yes. I agree with my colleagues. I am very 
concerned about the proposed ranking system and for many of the 
reasons that Dr. Wolff talked about.
    In the programmatic area, it is true that many of our 
students in my profession go back to school as adults. They do 
stick with their local communities and, frankly, the difference 
between a program at a large, private research institution 
might prepare an exceptional graduate to do those kinds of 
things related to their mission in public health, but also 
somebody who goes to a very small, State, locally focused 
university would do an amazing, wonderful job in the local 
community, and that is just as important in public health. I 
would hate to see that kind of system unfairly penalize those 
students who do that.
    The other thing that concerns me is the accuracy of data. 
The Department of Education currently has a database, and I 
included this in my written testimony, but currently has a 
database just to identify accredited or not accredited 
programs. It is consistently inaccurate, out of date. It does 
not capture the variety of what we do. It is not a good 
resource for students. We have talked to them about this 
multiple times and said, ``Please, link to the accurate 
information. It exists on our Web site.''
    I am very concerned if they cannot even get accredited 
status accurate for the public, how is it going to be with the 
kinds of really high stakes data that we are talking about for 
a rating system? That is my concern.
    The Chairman. Thank you all very much.
    Senator Alexander. You did not ask my opinion, but I agree 
with them.
    [Laughter.]
    See, I think that would be a big miss. That kind of reminds 
me of all these groups around town that rank whether you are a 
good Republican or not. They pick the 20 votes they like and 
then they give you a 51, and boy, another group will give you a 
95.
    Some useful points have been made, though. I think Dr. 
Levine's point, I think he is right. Probably the Department 
ought to sit down with the accreditors and say, ``What are the 
questions that a student should ask if they want to go to this 
type of institution?'' And then, ``Where in the Web world is 
that accurate information available so we can link them onto 
it?'' rather than the Department itself doing it.
    The Department does not have the capacity to do stuff like 
that. I mean, they are well-meaning people, but they just 
cannot do that. So, that would be a good thing to do. The other 
thing we should do is go through all the things that the 
universities are already required to report and get rid of all 
the stuff that is not what we just said because they already 
have a mountain of things that they have to report.
    My impression is that it just goes into the Department of 
Education and disappears into an inadequate data collection 
system that is of very little value and there is no one really 
to see it.
    So let us get rid of all of that. Ask the accrediting 
agencies what should be asked, let the Department link to that, 
and then the Department could have a pretty good sort of 
national report card that students and parents could go to and 
find out the 10 best questions they ought to ask if they want 
to go to this school of nursing, or this law school, or to this 
community college. That could be a help. But the idea of the 
Federal Department of Education ranking colleges and 
universities would be way beyond the capacity of any sort of 
national school board, in my view.
    The Chairman. With that we call the hearing to a close.
    I want to thank all our witnesses for sharing your 
expertise and views. Again, improving the structure of 
accreditation and ensuring academic integrity is a key priority 
for this committee as we reauthorize the Higher Education Act.
    I thank all my colleagues. I especially want to thank 
Senator Alexander for his partnership on this hearing on the 
committee's efforts to examine issues critical to this 
reauthorization.
    I request the record remain open until January 2, 2014 for 
members to submit statements and additional questions for the 
record.
    I hope I can also ask all of our witnesses that we can 
reach out to you one way or the other, on our staff level or 
member level, as we move ahead in the next year's 
reauthorization. I would appreciate that very much. Thank you 
all for being here today.
    The committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Talking Points From Senator Alexander
    <bullet> Mr. Chairman, thank you for agreeing to hold this hearing 
on the important topic of accreditation.
    <bullet> Accreditation has been a topic of growing concern on both 
sides of the aisle.
    <bullet> In most countries in the world, the function of 
accreditation, or quality assurance, is carried out by a government 
agency, such as a ministry of education; however, here in the United 
States, we rely on independent, non-profit organizations to determine 
quality.
    <bullet> We should bear in mind that this approach has helped 
produce a higher education system that has not just some of the best 
colleges and universities in the world, but almost all of them.
    <bullet> As we look forward to the reauthorization of the Higher 
Education Act, it is instructive to look backward to the origins of 
accreditation, which has evolved in phases.
                                phase i
    <bullet> The first accrediting agencies emerged more than 120 years 
ago, in the last decades of the 19th Century.
    <bullet> Much like today, higher education at that time was in a 
state of flux.

        <bullet>  Some colleges had abandoned the classical curriculum 
        and were adopting something known as the elective system.
        <bullet>  New types of institutions were emerging, including 
        normal schools to prepare teachers, technical schools, and 
        junior colleges.
        <bullet>  Enrollment in both high school and college was 
        increasing rapidly, often with no clear distinction between the 
        two.

    <bullet> With no commonly accepted standards for getting admitted 
to a college or for completing a college degree, people started to ask: 
``What is a college?''
    <bullet> So, in 1885, a group of colleges and high schools in New 
England formed a voluntary association to answer that question by 
agreeing on common admissions criteria and standards of academic 
quality.
    <bullet> Within 10 years, three more regional accrediting 
associations emerged covering most of the United States (except the 
Pacific Coast and a few mountain States).
    <bullet> It made sense that these new accreditors were organized 
regionally, since very few students attended schools far from where 
they grew up and travel costs made nationwide collaboration difficult.
    <bullet> At the turn of the 20th century, fewer than 13 percent of 
Americans were completing high school and less than 3 percent were 
completing with college degrees.
    <bullet> In the following decades, accreditors worked to promote 
higher and more specific standards for both admissions and academic 
quality.
    <bullet> Colleges and universities participated on a voluntary 
basis, subjecting themselves to critical review by their peers as a 
means of quality improvement.
    <bullet> There was no Federal involvement in or oversight of 
accreditation whatsoever.
    <bullet> In 1944, Congress passed the G.I. bill, which included 
Federal financial assistance to help any veteran who served at least 90 
days between December 1941 and 1946 pay for college or vocational 
training programs at the public or private institution of their choice. 
This included even high schools.
    <bullet> The only limitation on choice of institution was that it 
had to be approved by the appropriate State educational agency or by 
the Administrator of the Veterans Administration.
    <bullet> The number of Americans enrolled in college more than 
doubled in just 6 years between 1943 and 1949.
    <bullet> According to the U.S. Department of Education:

        <bullet>  In 1943, nearly 1.2 million were enrolled in college 
        (6.8 percent of 18-24 year-old population)
        <bullet>  By 1949, more than 2.4 million were enrolled in 
        college (15.2 percent of 18-24 year-old population)
                                phase ii
    <bullet> Federal involvement in accreditation changed in 1952, when 
the Korean G.I. bill specified that institutions of higher education 
needed to be accredited by a federally recognized accreditor in order 
for a veteran student to use their benefits.
    <bullet> By this time, roughly 35 percent of students were 
graduating from high school and 6 percent were completing college.
    <bullet> This step was understandable, as the 1944 G.I. bill had 
led to some fraud and abuse, suggesting that relying on State approval 
of a higher education institution to operate was at that time not 
enough to ensure that Federal funds would be used at quality 
institutions.
    <bullet>  Most accreditors welcomed the change, as it gave them 
official standing and recognition they had previously lacked.
    <bullet> This was reinforced in the 1965 Higher Education Act, by 
requiring that students receiving any Federal student aid could only 
use those funds at institutions accredited by a federally recognized 
accreditor.
    <bullet> Tying eligibility to receive Federal aid to accreditation 
opened the accreditation process up to Federal regulation--the 
government had to decide what should constitute a federally recognized 
accreditor.
    <bullet> Regulation of accreditation increased gradually, 
especially after the 1965 Higher Education Act, but the law remained 
silent on what accreditors needed to focus on in determining quality.
    <bullet> Between 1952 and 1965, college enrollment increased from 
more than 2.1 million to nearly 6 million (almost 30 percent of the 18-
24-year-old population).
                               phase iii
    <bullet> In the 1992 reauthorization of the Higher Education Act, 
Congress took a big step by, for the first time, defining in law the 
areas accreditors needed to examine when determining institutional 
quality in order to maintain Federal approval.
    <bullet> By then, about 80 percent of Americans completed high 
school and about 21 percent completed college.
    <bullet> This language was modified and expanded in both the 1998 
and 2008 reauthorizations.
    <bullet> In 1952, only one reference in law and 1 page of sub-
regulatory guidance was sufficient to define what an accreditor needed 
to do to gain Federal recognition.
    <bullet> Today, accreditors are burdened with:

        <bullet>  10 pages of law;
        <bullet>  28 pages of regulation; and
        <bullet>  88 pages of sub-regulatory guidance.

    <bullet> There are now 93 different criteria that accreditors must 
consider when determining institutional quality.
    <bullet> It seems to me that the Federal Government has become too 
intrusive through the law and regulation, distorting the true focus of 
accreditation--quality and quality improvement.
    <bullet> Are we asking accreditors to review quality when we ask 
them to determine:

        <bullet>  Whether they have written plans to maintain and 
        upgrade facilities, equipment, and supplies?
        <bullet>  Whether their budget allocate resources for 
        facilities, equipment and supplies?
        <bullet>  Whether their facilities and equipment meet State and 
        local safety and fire codes?
        <bullet>  Whether they have adequate administrative staff?

    <bullet> We even ask them to determine if an institution is in 
compliance with Title IV, which should be the Federal Government's 
role.
    <bullet> Accreditation has become too complicated, leading to 
costly and lengthy reviews, and delving into areas in which accreditors 
have no expertise.
    <bullet> In 2007, I fought against attempts by the Department of 
Education to further federalize the accreditation process by 
implementing recommendations from the Spellings Commission that would 
have told accreditors exactly how to measure student learning.
    <bullet> I argued that the Department's approach would ``restrict 
autonomy, choice, and competition''--the very forces that have helped 
produce the best higher education system in the world.
    <bullet> No Child Left Behind has resulted in what amounts to a 
national school board for our elementary and high schools--the last 
thing we need is to take the same approach in higher education.
    <bullet> We in Congress have a duty to make certain that the 
billions we give to students to attend the colleges or universities of 
their choice are spent wisely.
    <bullet> But, we need to do so in a way that preserves the autonomy 
that has made our colleges and universities the envy of the world.
    <bullet> Mr. Chairman, it seems to me that this is a perfect 
opportunity to step back and start from scratch.
    <bullet> When we hear concerns raised about accreditation, we need 
to ask whether we in Washington are part of the problem.

        <bullet>  Vanderbilt University estimates that it's College of 
        Arts and Sciences devotes more than 5,000 hours to 
        accreditation-related work every year and that its School of 
        Engineering devotes up to 8,000 hours of work every year on 
        accreditation.
        <bullet>  The University of Michigan reports spending over $1 
        million in accreditation-related costs.

    <bullet> I look forward to today's hearing as an opportunity to 
further discuss the role of accreditation.
    <bullet> In doing so, I think we need to ask a few simple 
questions:

        <bullet>  What is the central purpose of accreditation?

          <bullet>  Is it to ensure quality?
          <bullet>  Are accreditors fulfilling that role?

        <bullet>  What is the Federal Government's role in 
        accreditation, if any?
        <bullet>  Has the Federal Government overstepped to the point 
        that accreditors are not doing what they were designed to do?

    [Whereupon, at 12:45 p.m., the hearing was adjourned.]

                                   

      
</pre></body></html>
